<html>
<title> - EXAMINING H.R. 2646, THE HELPING FAMILIES IN MENTAL HEALTH CRISIS ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 EXAMINING H.R. 2646, THE HELPING FAMILIES IN MENTAL HEALTH CRISIS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

                           Serial No. 114-55
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               ___________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
97-621                           WASHINGTON : 2016                         
                    
_________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>  
                   
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            G.K. BUTTERFIELD, North Carolina
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
CATHY McMORRIS RODGERS, Washington   JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     2
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8

                               Witnesses

Creigh Deeds, Senator, Senate of Virginia........................    11
    Prepared statement...........................................    13
Patrick J. Kennedy, Former U.S. Representative (RI), and Founder, 
  Kennedy Forum..................................................    17
    Prepared statement...........................................    19
Jeffrey A. Lieberman, M.D., Chairman, Department of Psychiatry, 
  Columbia University College of Physicians and Surgeons.........    23
    Prepared statement...........................................    25
    Answers to submitted questions \1\...........................   135
Paul Gionfriddo, President and CEO, Mental Health America........
    Prepared statement...........................................    38
Steve Coe, Chief Executive Officer, Community Access.............    52
    Prepared statement...........................................    54
Mary Jean Billingsley, Parent, National Disability Rights Network    66
    Prepared statement...........................................    68
Harvey Rosenthal, Executive Director, New York Association of 
  Psychiatric Rehabilitation Services............................    73
    Prepared statement...........................................    75
    Answers to submitted questions \2\...........................   137

                           Submitted Material

H.R. 2646 \3\
Congressional Research Service memorandum, submitted by Ms. 
  Schakowsky.....................................................   116
GAO Mental Health report entitled, ``HHS Leadership needed to 
  Coordinate Federal Efforts Related to Serious Mental Illness,'' 
  submitted by Mr. Murphy \4\
GAO Mental Health report entitled, ``Better Documentation Needed 
  to Oversee Substance Abuse and Mental Health Services 
  Administration Grantees,'' submitted by Mr. Murphy \5\
Statement of the American Roundtable To Abolish Homelessness, 
  submitted by Mr. Murphy........................................   118
Statement of the American College of Emergency Physicians, 
  submitted by Mr. Murphy........................................   121
Statement of the National Alliance on Mental Illness, submitted 
  by Mr. Murphy..................................................   123
Statement of the American Psychological Association, submitted by 
  Mr. Murphy.....................................................   124
Statement of the American Academy of Child & Adolescent 
  Psychiatry, submitted by Mr. Murphy............................   126
S. 1299 \6\
Article entitled, ``Fatal Police Shootings in 2015 Approaching 
  400 Nationwide,'' Washington Post, May 30, 2015, submitted by 
  Messrs. Tonko and Butterfield..................................   128

----------
\1\ Mr. Lieberman did not respond to submitted questions by the 
  time of printing.
\2\ Mr. Rosenthal did not respond to submitted questions by the 
  time of printing.
\3\ Available at: http://docs.house.gov/meetings/if/if14/
  20150616/103615/bills-1142646ih.pdf.
\4\ Available at:http://docs.house.gov/meetings/if/if14/20150616/
  103615/hhrg-114-if14-20150616-sd017.pdf.
\5\ Available at:http://docs.house.gov/meetings/if/if14/20150616/
  103615/hhrg-114-if14-20150616-sd014.pdf.
\6\ Available at:http://www.gpo.gov/fdsys/pkg/BILLS-114s1299is/
  pdf/BILLS-114s1299is.pdf.

 
 EXAMINING H.R. 2646, THE HELPING FAMILIES IN MENTAL HEALTH CRISIS ACT

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Joseph R. 
Pitts (chairman of the subcommittee) presiding.
    Members present: Representatives Pitts, Guthrie, Shimkus, 
Murphy, Burgess, Blackburn, Lance, Griffith, Bilirakis, Long, 
Ellmers, Bucshon, Brooks, Collins, Upton (ex officio), Green, 
Engel, Capps, Schakowsky, Butterfield, Castor, Sarbanes, 
Matsui, Schrader, Kennedy, Cardenas, and Pallone (ex officio).
    Also present: Representatives Tonko and Loebsack.
    Staff present: Clay Alspach, Chief Counsel, Health; Gary 
Andres, Staff Director; Leighton Brown, Press Assistant; Karen 
Christian, General Counsel; Noelle Clemente, Press Secretary; 
Andy Duberstein, Deputy Press Secretary; Katie Novaria, 
Professional Staff Member, Health; Tim Pataki, Professional 
Staff Member; Graham Pittman, Legislative Clerk; Chris Santini, 
Policy Coordinator, Oversight and Investigations; Adrianna 
Simonelli, Legislative Associate, Health; Sam Spector, Counsel, 
Oversight; Traci Vitek, Detailee, Health; Dylan Vorbach, Staff 
Assistant; Greg Watson, Staff Assistant; Christine Brennan, 
Democratic Press Secretary; Jeff Carroll, Democratic Staff 
Director; Waverly Gordon, Democratic Professional Staff Member; 
Tiffany Guarascio, Democratic Deputy Staff Director and Chief 
Health Advisor; Una Lee, Democratic Chief Oversight Counsel; 
and Samantha Satchell, Democratic Policy Analyst.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. The subcommittee will come to order. The 
chairman will recognize himself for an opening statement.
    Today's Health subcommittee hearing will examine the 
legislation authored by our colleague, Representative Tim 
Murphy, H.R. 2646, which is designed to help families 
struggling with crisis caused by mental health disorders. The 
bill makes available much-needed psychiatric, psychological, 
and supportive services for individuals with mental illness and 
families in crisis.
    With more than 11 million Americans who suffer with severe 
mental illness, such as schizophrenia, bipolar disorder, and 
major depression, many are going without treatment and often 
families struggle to find appropriate care for their loved 
ones. Since there is a patchwork of different programs and 
sometimes ineffective policies across numerous agencies, it is 
important for this committee to examine ways to fix the broken 
mental health system by focusing and coordinating programs and 
resources on psychiatric care for patients and families most in 
need of services.
    Over the past several years, Dr. Murphy, a practicing 
psychologist, has worked diligently to discern the most 
effective ways to research and treat these illnesses. As 
chairman of the Subcommittee on Oversight and Investigations, 
Chairman Murphy launched a review of the country's mental 
health system beginning in January of 2013. The investigation, 
which included public forums, hearings with expert witnesses, 
document and budget reviews, and GAO studies, revealed that the 
Federal Government's approach to mental health is a chaotic 
patchwork of antiquated programs and ineffective policies 
spread across numerous agencies with little to no coordination. 
The Helping Families in Mental Health Crisis Act of 2015, H.R. 
2646, aims to fix the Nation's broken mental health systems by 
refocusing programs, reforming grants, and removing barriers to 
care.
    I am pleased we are holding this hearing to hear from our 
witnesses and colleagues about their views on this pending 
legislation. And I look forward to the testimony from each of 
you today.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    The Subcommittee will come to order.
    The Chairman will recognize himself for an opening 
statement.
    Today's Health Subcommittee hearing will examine the 
legislation authored by our colleague, Rep. Tim Murphy, H.R. 
2646, which is designed to help families struggling with crisis 
caused by mental health disorders. The bill makes available 
much needed psychiatric, psychological, and supportive services 
for individuals with mental illness and families in crisis.
    With more than 11 million Americans who suffer with severe 
mental illness such as schizophrenia, bipolar disorder, and 
major depression, many are going without treatment and often 
families struggle to find appropriate care for their loved 
ones.
    Since there is a patchwork of different programs and 
sometimes ineffective policies across numerous agencies, it is 
important for this committee to examine ways to fix the broken 
mental health system by focusing and coordinating programs and 
resources on psychiatric care for patients and families most in 
need of services.
    Over the past several years, Dr. Murphy, a practicing 
psychologist, has worked diligently to discern the most 
effective ways to research and treat these illnesses. As 
Chairman of the Subcommittee on Oversight and Investigations, 
Chairman Murphy launched a review of the country's mental 
health system beginning in January 2013. The investigation, 
which included public forums, hearings with expert witnesses, 
document and budget reviews, and GAO studies revealed that the 
federal government's approach to mental health is a chaotic 
patchwork of antiquated programs and ineffective policies 
spread across numerous agencies with little to no coordination. 
The Helping Families in Mental Health Crisis Act of 2015, H.R. 
2646, aims to fix the nation's broken mental health system by 
refocusing programs, reforming grants, and removing barriers to 
care.
    I am pleased we are holding this hearing today to hear from 
our witnesses and colleagues about their views on this pending 
legislation.
    I look forward to the testimony today and yield the balance 
of my time to Dr. Murphy.

    [H.R. 2646 is available at: http://docs.house.gov/meetings/
if/if14/20150616/103615/bills-1142646ih.pdf.]
    Mr. Pitts. And I yield the balance of my time to Dr. Murphy 
from Pennsylvania.
    Mr. Murphy. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    Our mental health system is broken. Badly broken. It is 
getting worse, and it has to be fixed. Same goes for our 
handling of substance abuse in this country. Forty thousand 
suicide deaths in this country last year, 42,000 drug overdose 
deaths, 60 million with a diagnosable mental illness, 10 
million with serious mental illness, like schizophrenia, 
bipolar, severe depression, 100,000 new cases a year.
    The General Accounting Office reviewed this for the 
committee, said we spend in the Federal Government $130 billion 
a year, over some 112 programs and agencies that don't work 
together, have little accountability, and in many cases, don't 
have very good results.
    I ask every member of the committee during this hearing, 
and as we work forward on this bill, to stop and think. Imagine 
you have a child who is hallucinating, schizophrenic, out on 
the streets, and you are told that the law says you have no 
right to know anything about your child's location, condition, 
or care. Others presume that having any information is harmful 
to your own child. Or if your child is brought before a judge 
with concerns for the symptoms and the inability to care for 
themselves, and the judge says it is not against the law to be 
crazy. I ask you to stop and think about that. Are we so 
lacking in compassion, and are we so ignorant of what serious 
mental illness is? Would we say it is not illegal to have a 
heart attack, and walk away from a person with chest pains? Or 
how about dealing with someone with Alzheimer's, would we say 
it is not illegal to have Alzheimer's, and wonder the streets 
in winter, barefoot?
    Look, here is the truth. Serious mental illness is a brain 
disorder, and we must come to terms with this critically 
important fact or else nothing else we do or say today will 
make any sense to anyone. Let me say this again. Mental 
illness, especially serious mental illness, is a brain 
disorder, and as such, has to be seen and treated for what it 
is. To believe otherwise is folly, anti-science, and an 
injustice to the person, denies them appropriate treatment, and 
sentence them to more imprisonment, homelessness, 
victimization, unemployment, and barriers to care.
    So I urge members to embrace this bill, and I thank all 
those members on both sides of the aisle who have worked with 
us, and the many agencies and organizations who have done this 
as well. This bill is comprehensive, it is a big first step, 
but it does not fix everything. I wish there was a way we could 
go even further to build even more comprehensive changes, 
especially in dealing with substance abuse disorders, but this 
bill makes substantive changes in that so those issues will be 
addressed. It sets the stage for more reform.
    I look forward to hearing from the witnesses, but I 
especially want to thank our witnesses today, and Senator 
Creigh Deeds, and others for coming out to tell your courageous 
stories. I thank Chairman Upton for helping us schedule this 
hearing and move this forward. Let's make sure we provide more 
help for folks, so we understand where there is help, there is 
hope.
    I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    I am now pleased to recognize the ranking member of the 
subcommittee, Mr. Green of Texas, for his opening statement. 
Also to help welcome one of our former colleagues here.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing on mental health reform.
    I would like to recognize our former colleague, Patrick 
Kennedy. Good to see you, and thank you for your service and, 
of course, your family. And we keep it in the family. We have a 
relative on the committee.
    The Affordable Care Act made important changes in the field 
of mental and behavioral health. The law expanded access to 
mental and behavioral health services, advanced parity of 
coverage, and enabled states to expand their Medicaid programs 
so that millions of more Americans could access affordable 
quality coverage. While the ACA made great strides toward 
improving access to mental and behavioral health services, the 
mental health system is still in need of reform.
    In our efforts to advance reform, it is critical that the 
patient remain at the center of our focus. Approximately 10 
million Americans suffer from serious mental health illnesses, 
including major depression, schizophrenia, bipolar disorder, 
post-traumatic stress syndrome. The National Alliance on Mental 
Illness reports that between 70 and 90 percent of individuals 
have significant reduction of symptoms and improved quality of 
life with appropriate treatment and support. The numbers show 
that treatment works. Even though the overwhelming majority of 
individuals with mental and substance use disorders improved 
after receiving treatment, almost \1/2\ of all adults living 
with serious mental illness do not receive treatment in the 
past year. Given that the statistics show that treatment is 
effective, and that a considerable number of adults still go 
without treatment, our efforts to improve the mental health 
care system must empower patients and their caregivers with 
access to a range of treatment and support services. We must 
also remove barriers to that access.
    In today's hearing, we are considering several pieces of 
legislation that seek to reform and improve our mental health 
care system. They are H.R. 2646, the Helping Families in Mental 
Crisis Act, and H.R. 2690, the Including Families and Mental 
Health Recovery Act.
    I appreciate my colleague from Pennsylvania, Dr. Murphy's, 
endeavor to advance comprehensive mental health reform, and I 
particularly appreciate his relationship when we have been 
working on this for a few years, including during the 
Affordable Care Act. I do have some concerns about the 
legislation, that it may not adequately take into account the 
diversity and complexity of mental health needs that patients 
and their caregivers present. Comprehensive mental health 
reform must feature community-centered options that focus on 
recovery and prevention. We must ensure that reforms are 
patient-centered and address the full continuum of care.
    I look forward to hearing today more about this legislative 
proposal, and I also appreciate my colleague from California, 
Congresswoman Matsui, for her efforts to improve mental health 
care delivery and the Including Families in Mental Health 
Recovery Act. The legislation seeks to improve the 
understanding of providers, patients, and caregivers on how 
HIPAA requirements apply to the mental health space. It will 
clarify HIPAA privacy standards for the release of protected 
information to patients' families and caregivers, and increase 
education on this critical issue.
    I would also like to thank our witnesses here today and 
look forward to their perspectives.
    With that, I would like to yield 1 minute to my colleague, 
Congressman Kennedy, from Massachusetts.
    Mr. Kennedy of Massachusetts. I thank the ranking member, 
and I thank the committee for holding this important hearing. 
To all of the witnesses, thank you very, very much for your 
testimony, and look forward to your insight.
    There is a familiar face, as I think everybody recognizes. 
Patrick, it is wonderful to see you here. I think you will 
probably hear from your colleagues, it is like you have never 
left. And that is true because it actually really is true. I 
get at least once a day people come up to me and say, Patrick, 
it is great to see you again. I get introduced often on the 
House Floor as the gentleman from Rhode Island. I get often 
many of your colleagues relate to me how grateful they are for 
my leadership on these issues, as they thank me, Patrick, for 
all that I have done. Which, of course, you can imagine I say, 
you are very welcome, and take all of the credit for myself. 
And every now and again, I let you know that, but often I 
don't.
    But, Patrick, it is largely to your efforts in Congress 
that mental health parity is much closer to becoming a reality 
today than it was a decade ago, and that the Affordable Care 
Act has allowed 16.4 million previously uninsured people get 
the coverage that they need. But I think everyone here would 
agree that we still have a lot more word to do.
    A lack of access to care has had a heartbreaking 
consequence across our country. Just recently, I saw a report 
that stated over \1/2\ of youth battling severe mental illness 
receive absolutely no help at all. Allowing so many children to 
fall through the gaps in our system leads to substance abuse 
and addiction, crime, and violence. In Massachusetts, as you 
know, we are in the midst of an opioid abuse epidemic that cost 
over 1,000 lives last year alone. Lives of the rich and poor, 
young and old, male and female, black and white. Taunton, a 
city in my district, we have already tragically seen 10 people 
die just this year. It has been 7 years since the Paul 
Wellstone Act was signed into law by President Bush, and 
another year since those final rules went into effect. Lives 
cut short in every corner of our country serve as a stark 
reminder that true parity cannot wait another day.
    I look forward to hearing from each of our witnesses today 
about how the bills we are considering and other legislation 
can help ensure that loved ones battling mental illness and 
addiction not only have the access to care that they need, but 
that they can get those services without additional barriers.
    Patrick, thank you.
    Mr. Green. Mr. Chairman, whatever time I have left, which 
is nothing, I would like to yield to my colleague from New 
York, Congressman Tonko.
    Mr. Kennedy of Massachusetts. Sorry.
    Mr. Pitts. Recognized for 30 seconds.
    Mr. Tonko. I thank Representative Green and the chair for 
the opportunity.
    I am pleased we are holding this hearing on such an 
important topic, and I wanted to take a moment at the outset to 
acknowledge and welcome my constituent and my friend, Mr. 
Harvey Rosenthal, to the panel. Harvey and I have known each 
other for many years, and have long worked together to better 
the lives of individuals dealing with mental health challenges; 
most notably, with the passage of Timothy's Law, which brought 
mental health parity to New York State before even our federal 
parity protections, which are outstanding. As the executive 
director of the New York Association for Psychiatric 
Rehabilitation Services, Harvey's passion and advocacy for 
individuals struggling with mental illness for over 40 years is 
unparalleled.
    So welcome, Harvey. Welcome panelists. I greatly look 
forward to hearing your testimony today. And with that, I yield 
back the balance of my time.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the chairman of the full committee, Mr. 
Upton, 5 minutes for an opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    There is no question that mental illness affects millions 
of Americans and their families, yet sadly way too many are 
going without treatment and their families are certainly 
struggling to find care for loved ones. Following the tragic 
events of Newtown, Connecticut, this committee led a multiyear 
review of the federal mental health system. Ensuring treatments 
and resources are available and effectively used for those 
suffering with mental illnesses has remained the real priority 
of this committee throughout the past number of years.
    I particularly commend Oversight and Investigations 
Subcommittee Chair Tim Murphy who has led and spearheaded our 
thorough review of all federal mental health programs. This 
committee held a series of public forums, briefings, and 
investigative hearings to determine how federal dollars are 
being prioritized and spent on research and treatment, 
particularly for serious mental illness. To address the flaws 
discovered in the extensive and wide-ranging examination, 
Chairman Murphy introduced H.R. 3717, the Helping Families in 
Mental Health Crisis Act of 2013. And two major pieces of that 
bill became law in the last Congress, and today we continue our 
efforts and look upon building on that success.
    Dr. Murphy has reintroduced his bill in this Congress, 
building upon the previous bipartisan version while updating it 
to include new findings from the committee's continuing 
investigation. H.R. 2646, this year's bill, would remove 
federal barriers to care, clarify privacy standards for 
families and caregivers, reform outdated federal programs, 
expand parity accountability, invest in services for those with 
serious mental illness, and promote evidence-based care. Every 
community, every single one, has been impacted in some fashion, 
and literally every family as well. To our community leaders on 
the frontlines, in my district, folks like Jeff Patton, who 
runs the Kalamazoo Community Mental Health and Substance Abuse 
Services, we say thank you. And to those families who have been 
impacted by mental illness in some form, Congress is aware, 
yes, we are, of your plight, and we can and we must and we will 
do much better.
    I want to thank our witnesses for taking the time to 
testify before the subcommittee, particularly my friend, former 
colleague, Patrick Kennedy, Virginia State Senator Creigh 
Deeds. We have an all-star panel, that is for certain.
    And I yield the balance of my time to the vice chair of the 
subcommittee, Mrs. Blackburn.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Mental illness affects millions of Americans and their 
families, yet sadly many are going without treatment and 
families are struggling to find care for loved ones. Following 
the tragic events of Newtown, Connecticut, the Energy and 
Commerce Committee led a multiyear review of the federal mental 
health system. Ensuring treatments and resources are available 
and effectively used for those suffering with mental illness 
has remained a priority of this committee throughout the past 
several years.
    Oversight and Investigations Subcommittee Chairman Tim 
Murphy spearheaded our thorough review of all federal mental 
health programs. The committee held a series of public forums, 
briefings, and investigative hearings to determine how federal 
dollars are being prioritized and spent on research and 
treatment, particularly for serious mental illness. To address 
the flaws discovered in the extensive and wide-ranging 
examination, Chairman Murphy introduced H.R. 3717, the Helping 
Families in Mental Health Crisis Act of 2013. Two major pieces 
of that bill became law in the 113th Congress and today we 
continue our efforts and look to build upon that success.
    Dr. Murphy has reintroduced his bill this Congress, 
building upon the previous bipartisan version while updating it 
to include new findings from the Committee's continuing 
investigation. H.R. 2646 would remove federal barriers to care, 
clarify privacy standards for families and caregivers, reform 
outdated federal programs, expand parity accountability, invest 
in services for those with serious mental illness, and promote 
evidence-based care.
    Every community has been impacted in some fashion. To our 
community leaders on the frontlines, folks like Jeff Patton who 
runs the Kalamazoo Community Mental Health and Substance Abuse 
Services--we say thank you.
    And to those families who have been impacted by mental 
illness in some form--Congress is aware of your plight and we 
can and must do better.
    I'd like to thank the witnesses for taking the time to 
testify before the Subcommittee--in particular former 
Congressman Patrick Kennedy and Virginia State Senator Creigh 
Deeds. We have an all-star panel for sure. I yield the 
remainder of my time to --------------------------------------
----.

    Mrs. Blackburn. Thank you, Mr. Chairman. And to our 
witnesses, we do thank you so much for being here. We are 
deeply appreciative of the time, and we know Congressman 
Kennedy has had this as an issue close to his heart for a long 
time, so we appreciate that you are here to share.
    I think that Tim Murphy deserves a tremendous amount of 
credit for the work that he has put into working through this 
process for the past couple of years. You have 10 million 
Americans that are in need of services, and who suffer some 
form of severe mental illness. The Federal Government is 
spending $130 billion a year, and people are not getting the 
services that we need. And in our district, Centerstone is a 
group that we have worked with on these issues for a period of 
time. And we were looking at the homeless population, some of 
the figures related there, and the fact that so many of these 
individuals end up in our jails, and this is something that 
needs to be addressed. They are sick and they need care. And in 
Tennessee, there were a total of 21,246 inmates in fiscal year 
2013. Of those, 11 percent were diagnosed with a severe mental 
illness, another 21 percent were diagnosed with nonspecific 
mental illness, and 16 percent were prescribed at least one 
psychotropic medication.
    But, see, we have this gap on outcomes and what the 
deliverable would be. And we are so grateful to Chairman 
Murphy's leadership for helping us hone in on this to make 
certain that needs are addressed, that there is a process for 
care delivery, and there is a process for these individuals to 
have a quality of life.
    And so we are going to have questions for all of you today, 
and we thank you for your commitment and for your time.
    And, Mr. Chairman, I yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    I now recognize the ranking member of the full committee, 
Mr. Pallone, 5 minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I know that Patrick 
Kennedy, our colleague, has gotten all kinds of accolades, but 
I want to add to it because, I think many of you know, or maybe 
you don't, that he was dealing and urging us to pass the Mental 
Health Parity Bill long before we even had it included in the 
ACA, and then he advocated when we were passing the ACA to 
expand it, which is exactly what happened. And I also would 
mention that he is not only an advocate domestically but also 
internationally. I remember when you and I went to Armenia 
together, and you went there because of the Special Olympics 
and trying to set up the Special Olympics in Armenia. So thanks 
for all that you do, Patrick, and it is good to see you.
    Today's hearing gives us the opportunity to discuss an 
important public health issue. According to the National 
Alliance on Mental Illness, approximately 1 in 5 adults in the 
U.S., or 43.7 million, will experience mental illness in a 
given year. Of those people, approximately 10 million live with 
a serious mental illness, including major depression, 
schizophrenia, and bipolar disorder.
    We have taken significant steps forward in recent years. 
The Affordable Care Act's passage was quite literally the 
largest expansion of mental health and substance abuse disorder 
coverage in a generation. The ACA prohibits individuals from 
being denied coverage due to a preexisting mental health 
condition. It expands eligibility for Medicaid coverage, and 
requires most health plans, including Medicaid, to cover mental 
health and substance abuse services. Not only are services 
covered, but mental health parity now applies, protecting 62 
million more Americans. This means that no insurer can impose 
requirements that are more burdensome for mental health than 
they can for physical health.
    Despite these major advances, far too many individuals 
still go without the treatment they need to live long, healthy, 
and productive lives, and more must be done to ensure coverage 
translates into effective treatments, and actually meets parity 
standards. That is why I am interested in hearing from 
stakeholders on what is working, what is not working, before we 
move forward with extensive or comprehensive legislation. For 
instance, Parachute NYC is here to discuss an innovative new 
approach for respite care for the seriously mentally ill, and I 
believe we can learn valuable lessons from this project and 
others funded through the ACA.
    Mr. Chairman, unfortunately, like last Congress, the first 
Health Subcommittee hearing on mental health is once again a 
legislative hearing on the Helping Families in Mental Health 
Crisis Act. As a result, the subcommittee will focus on 
solutions as framed by this bill, instead of being framed by 
the needs of individuals with mental illness and the system 
that serves them.
    While I have concerns with this process, I want to 
recognize that there are provisions of H.R. 2646 that I 
strongly support, including the increased focus on workforce 
development and the parity enforcement reporting requirements. 
However, I am opposed to several provisions in the bill, 
including its changes to HIPAA that would weaken the privacy 
rights of individuals with diagnosed mental illness, the 
conditioning of community mental health block grant funding on 
the presence of state AOT laws or treatment standard laws, and 
cuts in funding to substance abuse programs to pay for new 
mental health programs. As we all know, too often substance 
abuse and mental health go hand in hand, and we have a crisis 
in both areas. So I hope that after this hearing we can work 
together and find common ground to move bipartisan legislation 
forward that further advances the mental health system in this 
country.
    I would like to yield the remainder of my time to 
Representative Matsui.
    Ms. Matsui. Thank you, Ranking Member. And I welcome all 
you panelists. And nice to see you, Patrick.
    All of us know that we need to reform our Nation's broken 
mental health system, and we should all care about this issue 
before, during, and after a crisis or an event that affects us 
personally. We shouldn't wait until a person is in an acute 
crisis to provide needed care and services, and we shouldn't 
abandon people once the immediate crisis has ended.
    There is a full spectrum of mental health and illness that 
our system needs to address, and a full spectrum of treatment 
options, tools, and services and supports that we need to make 
available. We should not prioritize funding only for the 
highest level of care, such as inpatient hospital beds, at the 
expense of funding the rest of the continuum of care.
    I believe in the power of prevention, and that we need to 
do more to catch many conditions, including mental illnesses, 
early before they progress. I know our current system is 
flawed, and I look forward to working with my colleagues to fix 
it. That is why I introduced the Including Families in Mental 
Health Recovery Act, which is one of the pieces of legislation 
that we are discussing today. Stories of patients and their 
families who suffer mental illness do affect me personally. 
Time and time again, including what will be in testimonies 
today, I have heard horror stories from patients, families, and 
providers about what happened when providers could not 
communicate with caregivers, and information wasn't shared. I 
hear from providers and families alike in the mantra; I 
couldn't share because of HIPAA. However, the language of the 
HIPAA law does not prevent information-sharing in 99 percent of 
the stories I hear. Rather, it is a vast misunderstanding, 
misinterpretation, and overly cautious application of the HIPAA 
law. This is important. There is a problem here, but HIPAA 
isn't the root cause of it, which means that changing HIPAA 
won't fix anything. The root problem is awareness of what is 
and isn't allowed under the law.
    The bill that I introduced would do 2 simple things. First, 
formalize HHS Office for Civil Rights Guidance which clearly 
outlines how providers can strike the right balance between 
sharing information with caregivers and protecting patients' 
privacy. Second, it requires the development and dissemination 
of a model training program to educate and train providers, 
administrators, and lawyers, and patients and families on what 
can and can't be shared under the law.
    I appreciate this hearing, and I look forward to working 
with all of you. Thank you, and I yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    That concludes the opening statements of the members. As 
usual, the written opening statements from the members will be 
entered into the record.
    We will now go to our panel, and I will introduce them in 
the order of their presentations.
    First of all, the Honorable Creigh Deeds, Senator, Senator 
of Virginia. Welcome. And then our former colleague, the 
Honorable Patrick Kennedy, former U.S. Congressman from Rhode 
Island, founder of the Kennedy Forum. Jeffrey Lieberman, M.D., 
Chairman, Department of Psychiatry, Columbia University College 
of Physicians and Surgeons. Welcome. Mr. Paul Gionfriddo, 
President and CEO, Mental Health America. Steve Coe, Chief 
Executive Officer of Community Access. Ms. Mary Jean 
Billingsley, Parent, National Disability Rights Network. And 
Harvey Rosenthal, Executive Director, New York Association of 
Psychiatric Rehabilitation Services. Thank you all for coming 
today and testifying on this very, very important subject. And 
your written testimony will be made part of the record, and you 
will each be given 5 minutes to summarize your testimony.
    So the chair at this point will recognize Senator Deeds 5 
minutes for your summary.

   STATEMENTS OF CREIGH DEEDS, SENATOR, SENATE OF VIRGINIA; 
   PATRICK J. KENNEDY, FORMER U.S. REPRESENTATIVE (RI), AND 
 FOUNDER, KENNEDY FORUM; JEFFREY A. LIEBERMAN, M.D., CHAIRMAN, 
   DEPARTMENT OF PSYCHIATRY, COLUMBIA UNIVERSITY COLLEGE OF 
 PHYSICIANS AND SURGEONS; PAUL GIONFRIDDO, PRESIDENT AND CEO, 
  MENTAL HEALTH AMERICA; STEVE COE, CHIEF EXECUTIVE OFFICER, 
   COMMUNITY ACCESS; MARY JEAN BILLINGSLEY, PARENT, NATIONAL 
  DISABILITY RIGHTS NETWORK; AND HARVEY ROSENTHAL, EXECUTIVE 
 DIRECTOR, NEW YORK ASSOCIATION OF PSYCHIATRIC REHABILITATION 
                            SERVICES

                   STATEMENT OF CREIGH DEEDS

    Mr. Deeds. Thank you, Mr. Chair, and thank you, members of 
the committee, for giving me a couple of minutes. Thank you, 
Congressman Murphy, for making mental health issues--to 
bringing them to the forefront, to helping develop solutions to 
help families in crisis throughout the country.
    When formulating my thoughts about what I wanted to speak 
about today, how best to use my time, I thought about all the 
compelling stories that have been shared with me from 
Virginians and from people all throughout the United States. 
Honestly, I thought what could be more compelling than the loss 
of those innocent lives in Newtown, the moviegoers in Aurora, 
the bright emerging leaders of Virginia Tech, or the dedicated 
public servants at the Navy Yard.
    In Virginia, we tinkered around the edges of public policy 
following the tragedy, but the real reform and meaningful work 
remains. But if we did not act after all those unspeakable 
tragedies, what could I possibly say today to you to press upon 
you the importance of acting, the importance of coming together 
and finding solutions, many of which are here before you in 
H.R. 2646.
    In addition to each of those high-profile cases involving 
large losses of life, there are tragedies of smaller scales. 
You can read about Natasha, a woman with mental illness who 
ends up in jail instead of a mental health treatment facility 
that can properly care for someone with an illness. When the 
jail attempts to transfer her, six members of law enforcement 
in biohazard suits handcuff, shackle, and place a faceguard on 
her. When she refuses to bend her knees and sit in a transport 
chair, she is tazed multiple times. She dies. If she was in a 
mental health facility and needed to be sedated, the staff 
would have had appropriate options. I can only imagine what she 
was thinking and feeling when all of those men entered her cell 
in spacesuits, and I can only imagine how much grief and pain 
her family is enduring today.
    You can read about Christian, a 17-year-old boy with a 
knife, threatening suicide. Law enforcement was called to the 
scene, and when the boy made movements toward the officer, he 
was shot dead. I can only imagine the shock and horror of his 
friend who had called for help.
    Tragedies happen every day that involve someone in a mental 
health crisis. Most do not make the news. I have heard so many, 
and those stories serve to guide me in my review of the mental 
health system in Virginia. The heartbreak is unbearable. I hear 
these stories, I hear them every day. People reach out to me 
for help every day, and the sad truth is that in many ways, 
there is little I can do to help. The system is not set up in a 
way that encourages advocacy.
    One of the primary issues I see is HIPAA. We came together 
in a bipartisan way in Virginia to adopt meaningful reforms 
last year and to some extent during the 2015 Session, but 
nothing we do can circumvent HIPAA. I need, the states need, 
the Federal Government as a partner in reforming the mental 
health system. Government was not envisioned to work quickly, 
and we are geared toward incremental policy changes, but I am 
telling you, the time for action is now. Families are 
struggling. People are dying. People are grieving.
    While there is no panacea, there are things to be done to 
improve the lives of people with mental illness, promote better 
outcomes, and to help give some relief to families who are 
struggling every day. We can accomplish this without 
jeopardizing the civil liberties of those with mental illness.
    While I do not like to speak about my own situation, I will 
end briefly talking about Gus. No legislative action either 
here in the District of Columbia, nor in Virginia, will bring 
back my son, but hopefully it will help others keep their loved 
ones safe. I have four precious children. My three daughters 
make me prouder every day, but I have forever lost my son. I 
worked within the mental health system to help Gus when he 
began to show signs of mental illness. He was brilliant. 
Everyone in this room would envy his adeptness in picking up 
languages, his knowledge of religion, his ability to play any 
instrument he would pick up, and his kindness and gentleness to 
his fellow man. My world was shaken to its core when he began 
showing signs of delusional thinking and sporadic behavior. I 
was just not equipped with the knowledge or the information to 
help him. HIPAA prevented me from accessing the information I 
needed to keep him safe and help him towards recovery. Even 
though I was the one who cared for him, I was the one who fed 
him and housed him, transported him, insured him, I was not 
privy to any information that would clarify for me his 
behaviors, his treatment plan, his symptoms to be vigilant, 
not--I had no idea. I didn't know his diagnosis, his 
prescription changes, and necessary follow-up. I had sought to 
have him hospitalized earlier, so he was wary of my having any 
information. So I was in the dark as I tried to advocate for 
him in the best way I could with the best information I had. 
The last time I tried to hospitalize him, he was turned away. 
We ran out of time, and law enforcement had to release him.
    We have to do better. Not for me, not for the countless 
other families who have already buried their loved ones, but 
for those who struggle with mental illness and the families 
that struggle to help them. They are crying out for help. They 
are desperate, they are exhausted, and they need your 
leadership.
    Thank you.
    [The prepared statement of Mr. Deeds follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Pitts. The chair thanks the gentleman.
    Patrick, you are recognized 5 minutes for your opening 
statement.

                STATEMENT OF PATRICK J. KENNEDY

    Mr. Kennedy of Massachusetts. Thank you, Mr. Chairman. 
First, I think I speak for all of us, Senator Deeds, when we 
say our hearts go out to you. I don't think there is a person 
in this country that wasn't moved by your tragedy, and what it 
speaks to all of us. And the notion that we have let all those 
tragedies go by, and as a nation, have failed to act is 
abominable. And I think what you have said is what we all need 
to hear over and over again; the time is now. And, 
Representative Murphy, thank you for stepping up. I know you 
have drawn a lot of criticism, and this bill isn't perfect, but 
you have had the fortitude to stick with it and to keep 
pressing. And you have listened to people and you have shaped 
legislation that moves us forward. Is it the answer, as you 
rightly said? No, it is just a piece of the answer. But as you 
said at the very start of your remarks, the essential message 
we need to come out of this hearing is that these are real 
physical illnesses, and they need to be treated with the same 
urgency that we would treat cancer or any other fatal or 
disability in this country.
    The notion that we treat these issues as moral issues as 
opposed to medical issues is really the central issue before 
this committee. And I am honored to have been honored to work 
with many of you to get the Mental Health Parity and Addiction 
Equity Act passed. And that bill, if implemented, and I have 
heard comments already from many of you including my cousin, 
Joe, will transform the system because if the liability is on 
payers, including the Federal Government, to treat brain 
illnesses like any other illness, then they will start to see 
that an ounce of prevention is worth a pound of cure, that 
investing in early identification and treatment and 
intervention is the answer. Just like with cancer, just like 
with diabetes, just like with cardiovascular disease. We don't 
wait until these illnesses become pathologized before we treat 
them. But with mental illness and addiction, what do we do? We 
wait until you are in crisis before our system ever starts to 
kick in. And then people blame the system as not working 
because somehow it doesn't take someone with stage 4 cancer and 
make them well.
    Are you kidding me? If we don't intervene early, these 
illnesses do become intractable. But we don't have to let it be 
that way. We can intervene early. We can save lives. But the 
basic premise to all this is just treat these like you would 
someone with cancer, and not wait around until the illness gets 
to become worse and in a crisis stage.
    So, Representative Murphy, I am sure we will have a chance 
to talk in great length about the details of this bill, but I 
just want to salute you for putting forth a number of issues 
that we can talk about and we can begin to explore as ways to 
improve the system. The system needs accountability. The system 
needs transparency. And you have been a champion of those 
things, and I think that they are--throughout your legislation, 
and it is why I am honored to be here to work with you and my 
democratic colleagues to make sure that this House passes 
something to answer what Senator Deeds put forward to us, and 
that is to act, and to act now.
    Thank you.
    [The prepared statement of Mr. Kennedy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The chair thanks the gentleman. Thank you for 
your leadership and your passion.
    Dr. Lieberman, you are recognized for 5 minutes for your 
opening statement.

            STATEMENT OF JEFFREY A. LIEBERMAN, M.D.

    Dr. Lieberman. Thank you, Chairman Pitts, Ranking Members 
Green and Pallone, and honorable committee members. I am 
pleased to be here attending this hearing. I also would like to 
thank Representatives Murphy and Johnson for their enlightened 
legislation, and express my gratitude to Representatives Upton 
and DeGette for the critical leadership on the 21st Century 
Cures.
    I am a Professor and Chair of Psychiatry at Columbia 
University, and Psychiatrist-in-Chief at New York Presbyterian 
Hospital, and have spent my career doing research on the 
neurobiology and psychopharmacology of psychotic disorders. In 
addition, I have, throughout my career, taken care of patients, 
both overseeing clinics with trainees, as well as having 
patients directly in my own practice. I am a member of the 
National Academy of Sciences, Institute of Medicine, and the 
past President of the American Psychiatric Association. I 
mention this simply to say that I believe that I am in an 
informed perspective to express knowledgeable opinions about 
the field of mental illness and mental health care.
    And in the course of my career, I can say that I have 
continuously borne witness to all that Senator Deeds and 
Congressman Kennedy have described to you. The stories are 
countless, enumerable, and appalling.
    But in the time I have, I would like to make 3 points. 
First, that psychiatry is a scientifically based profession. No 
different from cardiology, neurology, or ophthalmology, 
although in deference to Representatives Burgess and Bucshon, 
maybe not as advanced as obstetrics and gynecology and cardiac 
surgery. But the second is that, although we have an egregious 
chronic crisis in mental health care, this is solvable. You 
deal with a lot of problems that are not solvable. Alzheimer's 
Disease in the aging population, global warming, terrorism. 
This is a solvable problem. And the third is, I want to 
describe what providing quality and comprehensive mental health 
care will do for our country.
    When I was a medical student in third year in the mid-1970s 
at George Washington University, I told my advisor that I 
wanted to go into psychiatry. He exploded and said, what would 
you do a dumb thing like that for, and throw away a perfectly 
good career? Psychiatry was then, and still is, the Rodney 
Dangerfield of medicine. It doesn't get the respect it 
deserves. But that is because for the first 150 years of its 
existence, psychiatry had little to show for itself. No 
scientific information of mental illness, no effective 
treatments. It could do little to help people with mental 
illness, other than to institutionalize them, and those became 
appalling snake pits.
    But that was then and now is now, and everything has 
changed since the scientific revolution of the latter 20th 
century, beginning with the arrival of psychotropic drugs. And 
as a result, psychiatry has a strong scientific foundation, and 
an array of evidence-based treatments that are effective and 
safe.
    What this means is that we have the knowledge and the means 
to solve this crisis. To do this though, we have to provide a 
template of comprehensive evidence-based services to health 
providers at the state, county, and municipal levels, and align 
financing mechanisms to incentivize to providers to adopt 
these. In addition, and this is something that is not widely 
appreciated, we must dispel the stigma of mental illness, just 
like we have in our society for other things, such as racism, 
sexism, anti-Semitism. There still is prejudice against mental 
illness and psychiatry due to its inglorious past, but these 
anachronistic attitudes confuse people, create fear and 
mistrust of mental health care, and deter people from seeking 
and getting help.
    The Helping Families in Mental Health Crisis Act offers a 
transformative opportunity. If we are successful, and we can 
be, we will lessen the burden of illness and improve the 
quality of life of our citizens. It also alleviates some of the 
most disturbing and dispiriting problems in our society, 
including domestic violence, addiction, suicide, the mentally 
ill who are homeless and increasingly in prisons, the shocking 
rates of PTSD and suicide in military personnel, and the 
recurrent episodes of these civilian massacres and mass 
violence perpetrated by some people with untreated mental 
illness. As a bonus, comprehensive effective mental health care 
would also deter the massive inflation in health care costs 
driven by patients with comorbid mental disorders who receive 
repeated and unnecessary medical and surgical services.
    One final comment is that, it is imperative that in the 
process of revamping our mental health care system, that we be 
guided by scientific evidence and not ideology or opinion. 
Science guides cardiovascular medicine, oncology, orthopedics, 
neurology. It should guide mental health care as well.
    The 21st Century Cures, I hope, will address an egregious 
chronic underfunding of the biomedical research community, 
because ultimately, research is what drives the quality of 
care. We have the means to solve this crisis. We simply need to 
find the social and political role.
    I thank you for having me, and I await your comments and 
questions.
    [The prepared statement of Dr. Lieberman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize Mr. Gionfriddo for 5 minutes for an opening 
statement.

                  STATEMENT OF PAUL GIONFRIDDO

    Mr. Gionfriddo. Thank you. I want to applaud this 
subcommittee, and in particular, Congressman Tim Murphy and 
Congresswoman Eddie Bernice Johnson, for your leadership in 
this area.
    As a parent of an adult son with schizophrenia, I deeply 
appreciate this because for so many of us, this is not just a 
policy matter, this is our life.
    As a former state legislator in Connecticut, I know how 
difficult it can be to build consensus around mental health 
policy. I, therefore, also appreciate the effort of the 
sponsors to invite so much feedback during the past year to use 
it to shape the proposal before you today. In our view, H.R. 
2646 is an important start to making comprehensive mental 
health reform a reality in America.
    In these brief remarks, let me focus on some areas that are 
important to MHA. Its emphasis on moving upstream in the 
process, that is, on intervening before stage 4, is a critical 
step forward to treating mental illnesses like we treat every 
other chronic disease. It includes funds for screening, early 
intervention, and treatment programs. And let me share why this 
is so important. In the spring of 2014, MHA launched an online 
screening tool through our Web site at MHAscreening.org. To 
date, nearly \1/2\ million screens have been completed; nearly 
\1/2\ by people under the age of 25. Two thirds screen as 
positive or moderate to severe for the condition for which they 
have screened, but \2/3\ of those say they have never been 
diagnosed with a mental health condition. Screening is the 
doorway to services and treatment. H.R. 2646 makes screening, 
especially for children and young adults, a part of the 
innovation grants, the demonstration grants, the Youth Suicide 
Prevention Program, the Campus Mental Health Program, among 
others. And in legislation that emphasizes building on 
evidence-based programs, we note the importance of innovation, 
because today's evidence-based program is yesterday's well-
evaluated innovation.
    In addition, it is our hope that you will look to expand 
the opportunities to integrate health and educational services 
for our children. My son, Tim, has schizophrenia. He is 30 
years old today, living mostly on the streets of San Francisco. 
He first showed signs of the disease when he was a young child. 
Throughout his school years, we sought special education 
services for him, and were frequently rebuffed. This is because 
those of us making policy a generation ago were not thinking 
about children like Tim as we implemented our modern special 
education laws. Today, only 362,000 children in the country 
receive special education services because of an SED label. 
That represents only 1 child in every 28 NIMH says has a 
serious mental health condition or concern. This represents too 
many tragedies waiting to happen.
    MHA endorses the empowerment and elevation of the lead 
federal agency in this legislation, and we hope you will 
consider adding two additional responsibilities to it. The 
first would be to establish a common standard, other than 
danger to self or others, as a trigger to involuntary treatment 
for SSI, because this is not a clinical standard. The second 
would be to develop a national plan that would result in an end 
to the incarceration of nonviolent people with serious mental 
illnesses. We also endorse the efforts to enhance the mental 
health workforce in this bill. At MHA, we have a special 
interest in the peer. And in this legislation, we see an 
opportunity to develop a properly credentialed peer workforce 
that could work competitively at competitive salaries in 
clinical settings.
    With respect to AOT, we support the approach in this 
legislation that it takes not to mandate it nationwide. We 
encourage the committee's review of language that may appear to 
be in conflict with the intent of the sponsors, and revise it 
if need be. And we also support changes to the privacy rules, 
because the current rules are an impediment to integrating 
health and behavioral health care. You can't fully integrate 
care with only \1/2\ a medical record. But as someone who has 
worked closely in the past in Austin, Texas, with community-
based providers seeking to integrate care, I worry that meeting 
simultaneously the six conditions may be so difficult and time-
consuming for providers that many will not try.
    Consider as an alternative this. Clarify the relevant law 
to eliminate the super authorization needed to share behavioral 
health information. This will promote integration without 
compromising an individual's right to manage the release of his 
or her protected health information. Finally, we understand the 
need to offset new expenditures with reductions in other areas, 
but worry that the offsets might come from existing community 
health programs. If you want to find offsets, please look 
towards jails and prisons. By sending so many of our children, 
like my son, Tim, to those 21st century asylums, that is where 
we sent the funding we need for mental health services today.
    In closing, for more than a century, MHA has argued, for 
more than a century, that it is well past time to address 
mental health issues in a comprehensive, thoughtful way, and 
this is a start. Let's work together to remove the stigma 
associated with seeking help for mental health concerns, and 
the discrimination that occurs against those who live with 
them. Let's put in place a mental health system that allows us 
all to move upstream, provide the behavioral health services 
individuals need and deserve early, and enforce parity in 
coverage. Let us address mental health concerns before stage 4.
    Thank you.
    [The prepared statement of Mr. Gionfriddo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize Mr. Coe 5 minutes for your opening 
statement.

                     STATEMENT OF STEVE COE

    Mr. Coe. Chairman Pitts, Congressman Murphy, thank you very 
much for inviting me to come today. It is a very important 
legislation, and I congratulate you for your vision.
    As you can see from my resume, I have worked as a CEO at 
the same agency, Community Access, for almost 36 years. I like 
to tell people I may have worked here a long time, but I have 
had the same job for only 1 day. For instance, I wasn't 
testifying before Congress yesterday. Next week, I will be at a 
conference in Norway, learning about assertive community 
outreach programs in Europe. And with hundreds of employees, 
and 11,000 tenants in 20 apartment buildings from the Bronx, 
Manhattan, and Brooklyn, something different is happening every 
day.
    Most of what happens at Community Access is inspiring, 
which is another reason I have worked here so long. As my 
submitted testimony describes, our organization was founded by 
family members, led by the brother of a woman who had spent 
years confined to psychiatric hospitals, and then more years 
cycling between squalid housing and more hospital wards. His 
name was Fred Hartman. Fred inspired me, when I met him as a 
graduate student, studying housing and service models that 
would break the revolving door cycle, common in the 1970s when 
states discharged thousands of patients into our communities 
without proper supports. Fred's day job was Editor of Natural 
History Magazine, but he was really an activist and an 
organizer. As a white New York City kid, he had gotten on a bus 
and went to help black Americans vote in the south. When faced 
with the human misery and injustice experienced by his own 
sister, he recruited friends and colleagues, and created a 
better mousetrap; an improved model of care that would give 
former patients a safe, stable, affordable home, and basic 
supports.
    Community Access started out renting apartments in rundown 
tenement buildings. Today, we build modern apartment buildings 
with amenities like free Wi-Fi, 24/7 front desk service. But 
the core elements remain the same. People choose their own 
apartments and who they want to live with. They sign leases, 
they are responsible for their own bills. And our buildings 
integrate affordable housing for families and children, with 
units for formerly homeless people recovering from mental 
illness, referred directly from the New York City shelter 
system. We even have a subsidy program to encourage pet 
ownership.
    Overall, I feel H.R. 2646 supports many of the principles 
we embrace; an emphasis on results and outcomes, recognizing 
the valuable role peers can play in the workforce, support for 
innovation and demonstration projects to test new ideas, and 
more. But while there is a lot to like in H.R. 2646, the 
principle vehicle offered to achieve these results, AOT, is not 
what Fred would do. He believed too strongly in human rights 
and social justice; passions that I share. We can all agree our 
system of care fails on many fronts, and nowhere more than in 
the provision of crisis services and supports. H.R. 26 
acknowledges this fact within the title of the bill, to make 
supportive services available to individuals and families in 
mental health crisis.
    H.R. 2646 doesn't spell out what these supports should look 
like, which makes potential supporters of reform legislation, 
like myself, extremely wary. AOT is not a defined service. I 
can mean anything, and not much at all. In New York City, for 
instance, an AOT-assigned individual is given priority access 
to supportive housing, which research shows is the most 
effective tool in promoting community stability, and is 
entirely absent in many places.
    What service is going to take its place if this person in 
crisis is homeless? A higher dosage of medication, a 15-minute 
visit to a psychiatrist, a hospital bed? Without standards, AOT 
can mean anything, including interventions that have no 
evidence-base whatsoever.
    If we want true reform, let's mandate specific 
interventions that we know work, and many of which are 
mentioned in H.R. 2646. Mobile crisis teams, crisis 
intervention training for first responders. Only 3,000 of the 
Nation's 18,000 police departments use this commonsense 
approach. Patient-centered treating planning, targeted case 
management, psychiatric rehabilitation services, which is 
evidence-based, peer support and counseling services. Adding a 
guaranteed housing subsidy, and there have been cutbacks 
continually in Section 8 at the federal level, 24/7 walk-in 
centers, peer-operated support lines, like we operate with the 
Parachute NYC Program, and reform to the Ticket to Work Program 
so it actually becomes a pathway to a job, would truly 
transform the lives of millions of Americans with mental 
illness.
    States are already mandated to provide many services, 
including public education and prisons. How fervently they have 
chosen to embrace these mandates and fund them varies widely, 
and there is no reason to expect a vaguely defined mandate for 
an AOT program would turn out any better.
    Health care reform, with an emphasis on preventive 
services, integrated physical and mental health care, and 
crisis supports to avoid costly and traumatic hospital care, is 
already driving reform efforts across the country. H.R. 2646 
should look to support what is already happening in the 
marketplace, and not place another unfunded mandate on our 
State governments.
    Thank you.
    [The prepared statement of Mr. Coe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize Ms. Billingsley 5 minutes for an opening 
statement.

               STATEMENT OF MARY JEAN BILLINGSLEY

    Ms. Billingsley. Good morning, Chairman Pitts, Ranking 
Member Green. Thank you for the opportunity to testify today on 
this important topic that has touched me and my family 
personally.
    My name is Mary Jean Billingsley. I have a Master's Degree 
in Counseling and Personnel Services, but more importantly, I 
am the mother and co-guardian of Tim Costello. Tim is 22 years 
old and is dually diagnosed with both significant mental 
illness and developmental disabilities. Tim lives in Johnson 
County, Kansas. We are one of the families with a positive 
outcome that would not have been possible if the Helping 
Families in Mental Health Crisis Act of 2015 was law when my 
son encountered his problems. Several provisions of this 
legislation would have had a detrimental impact on the work of 
the Protection and Advocacy for Individuals with Mental 
Illness, the PAIMI program, in addressing Tim's needs. The 
changes to the PAIMI program in this bill would not help 
families, but would, in fact, harm families like ours.
    Tim's mental illness manifests itself with certain 
behaviors. Because of these behaviors, Tim was placed in a 
psychiatric institution in 2010. He was 17 at the time. In the 
summer of 2011, Tim was going to be discharged with no plan, 
and without proper supports in place. Without those supports, 
Tim's discharge was doomed to fail. We were devastated. Because 
Tim has both significant mental illness and a developmental 
disability, the different providers were trying to pawn Tim off 
to each other. Tim was always somebody else's problem. Without 
the right supports, Tim was going to continue to cycle in and 
out of institutions, at a high cost to both taxpayers and Tim's 
ability to recover.
    Tim wanted to live in the community. Our family wanted Tim 
to live in the community. This is a right granted under the 
Americans With Disabilities Act, allowing him to get needed 
treatment in the community instead of at an expensive 
psychiatric institution. We contacted the Disability Rights 
Center of Kansas, the federally mandated protection advocacy 
agency for people with disabilities, which operates the PAIMI 
program. Because of the PAIMI program, DRC was able to help Tim 
and my family with his complex situation. Sorry, I missed a 
page, excuse me.
    Every brick wall the system threw up against us, the PAIMI 
program gave DRC the authority to tear it down. Kansas policy 
made it impossible for young adults like Tim to transfer out of 
psychiatric institutions to community long-term care programs 
with needed supports. DRC was able to negotiate a change in 
this policy, allowing Tim to obtain services through the Money 
Follows the Person Program, and obtain the long-needed supports 
in order to live successfully in the community.
    This bill would prohibit PAIMI-funded programs from 
engaging in much-needed policy work, even using nonfederal 
dollars. Tim's civil and human rights under the ADA would not 
have been protected.
    Tim was living successfully in the community, and we 
thought our problems were over, but they were only beginning. 
Tim then faced discrimination simply because of his disability. 
Some local governments in Johnson County, Kansas, started using 
zoning and land use ordinances to attempt to close Tim's 
community group home, as well as others. A not-in-my-back-yard 
attitude prevailed, targeted against Tim and others, because 
some did not want those people living in their neighborhood. 
We, again, contacted DRC for help. After failed attempts to 
work with local governments, Tim and 16 similar individuals 
with disabilities urged DRC to file disability discrimination 
complaints with Housing and Urban Development, alleging 
violations of federal and state laws. The HUD case is currently 
pending.
    If this bill were law, the PAIMI program would have been 
prohibited from helping our son with legal advocacy in the 
housing discrimination case because it is not abuse and 
neglect. The current PAIMI law has no such limitation. Without 
the help of DRC and the PAIMI program, Tim would still be 
cycling in and out of institutions. The resolution of Tim's 
current discrimination case may require DRC to seek a change in 
policy through legislation or local ordinances, which they 
currently can do using nonfederal funds. H.R. 2646 will 
prohibit this, and severely limit the remedies available for 
Tim.
    Tim's case was complicated. The PAIMI program gave DRC the 
ability to engage in every aspect of protecting Tim's rights, 
including the flexibility to use nonfederal dollars to engage 
in needed policy change. Tim's prior institutionalization and 
current housing discrimination involves numerous disability 
rights issues, including unjust denial of Medicaid services, 
violation of rights under the ADA and housing discrimination. 
Often the issues faced by people with mental illness are not 
abuse and neglect, but the problem of human and civil rights.
    In closing, this bill would limit the authority of the 
PAIMI program to cases of abuse and neglect, making it far easy 
to discriminate against and violate the rights of people with 
mental illness. It would also eliminate advocacy for policy 
changes, even with nonfederal dollars, on behalf of persons 
with disabilities, including mental illness. Those provisions 
are bad for families and bad for my son, Tim.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Billingsley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The chair thanks the gentlelady, and now 
recognizes Mr. Rosenthal 5 minutes for his opening statement.

                 STATEMENT OF HARVEY ROSENTHAL

    Mr. Rosenthal. Good morning, and thank you for this 
extraordinary opportunity to testify today.
    I am Harvey Rosenthal----
    Mr. Pitts. Is your mike on?
    Mr. Rosenthal. Yes.
    Mr. Pitts. Yes, go ahead.
    Mr. Rosenthal. Thank you. Sorry about that. A person in 43 
years of recovery from a bipolar disorder, with 40 years of 
experience working in the field, 18 in a hospital, clinic and 
rehab program, with 22 working as an advocate who has come to 
sit on New York's Medicaid Redesign Team, its Behavioral Health 
Workgroup, and our Most Integrated Setting Council.
    Thank you for including a recovering person here. I urge 
you to include more of us in these deliberations.
    My experience has told me that the best way to fix a broken 
system isn't by forcing people into the exact same services 
that have failed them in the past. It won't be achieved by 
reducing privacy protections, limiting access to personal and 
systemic advocacy, or by all of a sudden moving sharply to a 
medical biological bent in ways that could undo or jeopardize 
the extraordinary gains of the recovery and consumer-focused 
approaches that have taken us decades to develop.
    We are not working on my comments. They will tell you, in 
my written comments, they will explain my position.
    I woke up this morning and I felt like I had to use and 
focus on a word that has barely been discussed today, and that 
is recovery.
    And so as I said before, recovery, rehabilitation, 
consumer, and peer support movements have changed the face of 
service delivery to people with the most serious mental health 
conditions in this country and around the world. Before these 
movements took hold, our system told people they would never 
get well, never have intimate relationships, never get a job, 
and never be able to make most of their most personal 
decisions. I know because I saw it every day when I worked in 
the state hospital. We told people that they would never get a 
job, that they would be poor, idle, isolated, and segregated 
from society. They would be permanently disabled. The primary 
treatments of the day were medication and hospitalization. And 
I know we are talking a lot about that here in the bill, but we 
are not talking enough about recovery. We are talking a lot 
about meds and beds, but not enough about recovery.
    Our movements brought hope to people and their families, 
many for the first time. Hope was, and it is still not enough, 
a part of our toolkit. Even the sickest person can improve and 
get well. Although they are dissuaded from going to services if 
the service message is that you are sick, that you need to take 
medication, that you can't make decisions, that you will face 
coercion, that your privacy rights will be violated. It is not 
a way to engage people.
    I will tell you a way to engage people. We run a peer 
bridging program in the streets of New York City. We work with 
the hardest to serve; people that are very sick, and don't have 
good housing, who have addiction and trauma, and are, by 
definition, hard to find, victims of abuse, veterans. These are 
our greatest challenges. We developed a model of peer bridging 
that hits the streets. Too much of our system stays in the 
office and blames the patient. We hit the streets, and we go 
again and again and again to engage people. We work with 
families. We have helped hundreds of people in the city, reduce 
their relapses and their readmissions by 50 percent. Yet these 
services have not reached the standard of evidence-based 
practice. We are talking about research on brains. We have to 
also do research on peer services and recovery services because 
otherwise, we will undo them.
    When we talk about AOT, we are typically mandating people 
to take medicine in a hospital. When we talk about limiting 
what PNAs do, we are fearing that people will get off 
medications. When we are talking about the IMD exclusion, we 
are talking about more beds. We have come a long way to just 
talk about medications and beds.
    And, you know, when we talk about importing all of SAMHSA 
into the office of a new Assistant Secretary, we are gambling 
on the possibility that all of the work that has been done to 
transform and offer hope, recovery, wellness, employment, 
community integration, person-centered and self-directed care, 
might get lot in a large bureaucracy.
    There are some out here that believe the recovery movement 
is the enemy; that we are not interested in working with the 
sickest individuals. But I can tell you that we have helped 
tens of thousands of people stay out of jails and prisons and 
homeless shelters, and avoid suicide. We must absolutely be 
able to really focus in funding these programs. So we greatly 
need to offer the promise of recovery to people. You will see 
in my comments that we support a number of the things that 
Chairman Murphy--we laud him for his passion, but we really 
need to see a full range of recovery services, like Steve has 
talked about. There is not enough focus here in the bill, and 
it has to be said.
    Thank you.
    [The prepared statement of Mr. Rosenthal follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pitts. The chair thanks the gentleman. Thanks to all of 
our witnesses. That concludes the opening statements of our 
witnesses.
    We will now begin questioning, and I will recognize myself 
5 minutes for that purpose.
    Dr. Lieberman, we will start with you. Do you believe that 
the community mental health system, developed in the 1960s, was 
designed to serve the needs of individuals who experienced the 
most chronic and severe manifestations of mental illness, and 
if not, what are the consequences of this?
    Dr. Lieberman. Mr. Chairman, it may have been designed with 
that intent, but it was really woefully naive and ill-conceived 
and it failed miserably. I mean the idea was to humanize mental 
health care by being able to move patients from institutions 
into the community, and have them receive an array of support 
services, including housing, including case management, 
including medication and rehabilitation, but none of that was 
there, and they simply fell through the cracks. And we have 
never sort of regained traction on that program and that 
population since.
    Mr. Pitts. Mr. Gionfriddo, how has the 
deinstitutionalization of the mentally ill worked out over the 
past \1/2\ century? In your experience, why do so many mentally 
ill individuals pass through our criminal justice system or end 
up homeless, and are these individuals getting treatment while 
in prison or living on the streets?
    Mr. Gionfriddo. Those of us who were policymakers in the 
1970s and '80s really didn't understand two things about our 
system. One was that we were going to have to put front and 
center the kind of clinical services and support services that 
people would need when they were not in institutions. The 
second was we didn't understand that the pipeline was a 
pipeline of children, that these were illnesses that primarily 
affect initially children and young adults. And so as a result 
of that, what we have ended up doing with 
deinstitutionalization, the kind that we did in the '70s and 
'80s, was a reinstitutionalization of people into prisons. And 
those prisons and jails are not at all connected with the rest 
of the system, and that is a real tragedy.
    Mr. Pitts. Mr. Kennedy, at the present time, how does the 
IMD exclusion impact on the availability of clinically 
effective inpatient treatment options, particularly for 
Medicaid enrollees? How, if at all, would Title V of H.R. 2646 
go about fixing that?
    Mr. Kennedy of Massachusetts. Well, first of all, we have 
to understand that if we are going to treat these illnesses 
like all other illnesses, if the illness is critical and needs 
intensive inpatient treatment, you wouldn't limit that if it 
were the cancer patient, you wouldn't limit that if it was the 
cardiovascular patient, and you shouldn't limit that simply 
because the patient is someone with a psychiatric disorder.
    So I understand the derivation of this IMD exclusion. It 
came out of the days when people were warehoused, where care 
was substandard and horrifying, and yet we took a polar 
opposite approach by just not paying for any inpatient 
treatment as a result. Now we have progressed 5 decades, and we 
are stuck in the same mentality as 5 decades ago? No. We should 
follow the science, treat these illnesses as real illness, and 
in doing so, treat them if they need to be treated in inpatient 
settings, do so, and not preclude that as an option.
    Mr. Pitts. Senator Deeds, why is it important that we have 
enough hospital beds for the most seriously mentally ill who 
need hospitalization? Isn't a large part of the problem not 
just the lack of sufficient inpatient beds, but also the 
absence of any systematic way for the states to determine in a 
timely fashion where a vacant bed may be located?
    Mr. Deeds. That is a really good question. The reality is 
that when we moved to a community-based system, we reduced 
dramatically the number of beds we have all over the country. 
It is not just a national problem, it is not just a Virginia 
problem, it is everywhere in the country. And, as 
Representative Kennedy said, when a person has a heart attack, 
they are not turned away from an emergency room because the 
emergency room is full. It is just like when a person commits 
murder, they are not turned away from a jail because a jail is 
full. When a person has a mental health crisis, we have to find 
a bed.
    And in my view, hopefully, the larger number of people who 
need to be treated can be treated in the community, and we are 
not going to have to put them in an institution. But also in my 
view, we--and at this time, we have a shortage of beds 
nationally for those who have long-term mental health issues 
that need some period of institutionalization, sometimes 30 
days or more. We don't have the capacity in Virginia to provide 
that service to people.
    Mr. Pitts. Dr. Lieberman, you wanted to add something?
    Dr. Lieberman. If I could add something, Mr. Chairman. This 
is an egregious problem that is complicated but understandable. 
What happened was that the inpatient length of stay for most 
individuals with psychiatric illness in the 1960s and '70s was 
months, if not years. And they were either in state mental 
institutions, or they may have been receiving long-term 
psychotherapeutic treatment in the kind of euphemistically 
named institutions out in rural areas--typified by what the 
Menninger Clinic was. And when payers and the government found 
out the conditions in hospitals were terrible, and people 
weren't getting better and discharged, and psychotherapy and 
psychoanalytical treatment wasn't doing anything either for 
serious mental illness, they said, we are not going to pay for 
this stuff.
    The government health insured--Washington, D.C., when I 
went to medical school in the 1970s, had the highest 
concentration per capita of psychiatrists of any city in the 
country. Do you know why? Because GHI paid for psychoanalysis. 
That stopped pretty quick when there was no evidence to support 
it, and people started getting concerns of health care costs.
    So the kneejerk reaction was to go the other way and to 
limit length of stay, which plummeted down to now the single 
digit days as average length of stay.
    In my hospital, New York Presbyterian Hospital, the largest 
health provider in the New York metropolitan area, the average 
length of stay range--I mean the occupancy rate in the hospital 
in medical surgical services ranges from maybe 60 percent to 85 
percent, and in the psychiatry units it is 100 percent always, 
and the psych ED is the same thing. But the hospital, which is 
struggling for financial viability, will never give me another 
bed because it is not financially desirable to do so. And so we 
are caught in this quandary. As Senator Deeds said, if we had 
an effective mental health care system which could deter people 
coming into it by preventive care, which provided adequate 
ambulatory care to keep people from having to come into the 
hospital, we would decompress this, but it will take time.
    Mr. Pitts. The chair thanks the gentleman.
    My time has expired. The chair recognizes the ranking 
member, Mr. Green, 5 minutes for questions.
    Mr. Green. Thank you, Mr. Chairman. I want to thank all our 
panel.
    My experience outside of being a legislator is as a lawyer 
doing probate work in the 1980s in Houston, Harris County. I 
was so proud when we got a Harris County psychiatric center, 
managed by the University of Texas Health Science Center. But 
we have fewer beds there today than we did in 1988, and that is 
the frustration I think seen around the country.
    But when I was practicing law, I was so happy when I found 
somebody who actually was a veteran because I could get them 
into our veterans hospital that had real treatment, and we 
didn't have to wait for a bed. And that is our problem, and I 
know it is even worse today because of the growth in our 
population.
    My frustration back then was that very few insurance 
policies covered mental health. And I know the Affordable Care 
Act did much to advance mental health care largely by extending 
coverage for mental health and substance use disorders. It 
required new and small group insurance plans to cover these 
services as essential health benefits. In addition to advancing 
parity of coverage, the ACA authorized the Center for Medicare 
and Medicaid Innovation, the CMMIs, to test innovative models 
of care. The first round of health care innovation grants 
CMMI--10 were focused specifically on mental health.
    Mr. Coe, in your testimony you described the work Community 
Access has done to create programs that provide innovation and 
tailored services to people experiencing psychiatric episodes. 
I understand Community Access received the Health Care 
Innovation Grant from CMS to create Parachute NYC, or New York 
City.
    Mr. Coe. Right. Thank you, Congressman. That is correct. 
Community Access, in partnership with the City of New York, 
applied for a grant to create alternatives to hospital care, 
and the city called it Parachute NYC. It means a soft landing 
for people in a psychiatric crisis. Then the Parachute 
Program--it actually created four residences: one in Staten 
Island got left out again, but one in each borough, as well as 
enhancing the workforce by adding peers to mobile crisis teams, 
and creating a peer-run support line. So our residence opened 
first in January of 2013, so we have run it just for about 2 
years.
    We had almost no guests for the first 6 months. We had 
five, six guests. We had a capacity for seven. We had over 100 
people in the last 5 months. And 25 percent of those were self-
referrals. So if you put a service out that is an experience 
that people appreciate, they will flock to it. People can come 
and go. People are encouraged to talk to staff. Our staff are 
all peers. We had 800 applicants for 14 positions. And then 
training people on how to talk and listen to people, and 
brought in evidence-based practice to do that.
    New York has made a deal with the Center for Medicaid and 
the Government to reduce actually the usage of hospital use by 
25 percent over the next 5 years, including Dr. Lieberman's 
hospital, which is part of the reform plan, by creating more 
respite services, mobile crisis teams. Our mobile crisis teams 
take 48 hours to go out. In Pierce County, Washington, they 
take 48 minutes to go out. And a family in crisis needs a 
response, it needs a place to call, and then they need somebody 
to respond when the call is made.
    So Parachute NYC was a package of improving mobile crisis, 
offering alternatives to hospitalization, offering support 
lines, and expanding the peer workforce.
    Mr. Green. Mr. Coe, do you think that program could be 
replicated around the country, although I know we have a lot of 
programs all over the country that actually may not be Federal 
Government funding, but actually coming from the community?
    Mr. Coe. It is a simple model. I think that the idea--and I 
think the resistance that we faced initially was that it wasn't 
going to be safe, that peers are going to be running it, 
therefore, it is not going to be a safe place for people to go. 
So we had open houses, we had cake sales, we had people come 
and meet the staff. The staff went out and did presentations to 
agencies so they could see who worked there. We also linked to 
medical facilities and health care. So we don't ignore that 
safety is first. So you take care of people when they come in 
the door, if you notice a problem, you can seek help, but it 
has to be a system, and it can't be just one thing. It has to 
be organized, system-wide. And there are very few places around 
the country where they have done that.
    The crisis intervention teams, and a lot of--Arlington, 
Virginia, has a great program. Mental health, police, drop-off 
centers. Very well organized, they meet monthly. That is the 
kind of comprehensive----
    Mr. Green. OK.
    Mr. Coe [continuing]. Service that you can put together. 
So, yes.
    Mr. Green. Thank you, Mr. Chairman. I know I am out of 
time. But, Ms. Billingsley, I wanted to ask you a question. I 
will submit it and we will get a response about the success 
with your job. So thank you.
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize the vice chairman of the full committee, Mrs. 
Blackburn, 5 minutes for questions.
    Mrs. Blackburn. Thank you, Mr. Chairman. And thank you to 
each of you.
    I am going to come to Senator Deeds and Rep. Kennedy and 
Mr. Rosenthal. As I said, we have worked on this. Chairman 
Murphy has done such a tremendous job on this, and we want to 
have a piece of legislation that we can put in place, get 
signed into law, and then have that foundation that will work 
us toward parity.
    With that in mind, what I would like for the three of you 
that I have mentioned, and, Senator Deeds, let's start with 
you, to just talk to me, give me the two or three things that 
you think are best about the bill that will be most helpful, 
and then the couple of things that probably you think we need 
to go back to the drawing board on. And very quickly to the 
three of you, and then the others of our esteemed panelists, I 
would like for you to just submit that to us in writing.
    I think as we drill down, and as we get something ready to 
move forward, give me your thoughts. This is helpful to us as 
we plan forward.
    Mr. Deeds. And honestly, I was provided a summary of the 
bill, and that is what I read, and so I don't know that I have 
all the details to give you the answer to that question 
precisely. And maybe I can do that in writing later on.
    Mrs. Blackburn. That is acceptable.
    Mr. Deeds. The part of the bill that I really like are the 
changes to HIPAA. I hear from so many people--I mean since my 
son died, the last 19 months I get messages, I get e-mail, I 
get Facebook messages, I get contacted by people all over the 
country every day. Mothers and fathers, older brothers and 
older sisters who care for a loved one who has a mental 
illness, who can't get the information that they are in 
basically the same situation I am in, and I think----
    Mrs. Blackburn. OK. So for you, the number one would be the 
changes to the HIPAA laws.
    Mr. Deeds. HIPAA, yes.
    Mrs. Blackburn. You like that. That is something that would 
help you as a caregiver.
    Mr. Deeds. It----
    Mrs. Blackburn. OK.
    Mr. Deeds. I mean nothing is going to help me. I am done.
    Mrs. Blackburn. Yes, sir----
    Mr. Deeds. But it is going to help the next person.
    Mrs. Blackburn [continuing]. I understand, but I mean to 
that type situation.
    Mr. Deeds. Right.
    Mrs. Blackburn. And I appreciate that so very much. And I 
appreciate your willingness to work with us on this.
    Patrick?
    Mr. Kennedy of Massachusetts. Thank you, Representative 
Blackburn. I would say, obviously, we have all spoken about 
prevention as the main policy we should all adopt, but I don't 
want this hearing to end up becoming this false dichotomy that 
it is one or the other. Obviously, payers want to do it on the 
cheap. So if they can hire a bunch of peer support folks, they 
are going to do it. And if they can deny inpatient treatment, 
they are going to do it. So we just have to be mindful that one 
doesn't preclude the other.
    I like the recovery model. I am a beneficiary of the 
recovery model. But God forbid we use that as an excuse to 
preclude the medical treatment that people need when they are 
in crisis. This is not an either/or issue. We need both. And so 
I would say that. And I would finally say this. 42 C.F.R., if 
we are going to move forward in the 21st century, we need to 
have brain illnesses included in your medical record or else we 
are never going to get the comprehensive support that----
    Mrs. Blackburn. OK.
    Mr. Kennedy of Massachusetts [continuing]. Someone needs in 
their care. And I love that about----
    Mrs. Blackburn. OK, so we have HIPAA and we have a both-end 
approach, not an either/or.
    Mr. Kennedy of Massachusetts. Yes.
    Mrs. Blackburn. OK.
    Mr. Rosenthal?
    Mr. Rosenthal. Thank you. The parts of the bill that I like 
the best are the focus on integration of health care and mental 
health care, and the better coordination of criminal justice in 
mental health. There is no question that so many of our most 
vulnerable people really have all these issues, and the 
coordination is essential.
    In New York, thanks to the Affordable Care Act, they are 
implementing health homes which are linking all of these 
systems to work together. One staff person, one record, one 
plan.
    The second thing, and I am really just not sure how to read 
the bill, but it looked like something we had talked about, 
Congressman Murphy, about outreach and engagement. You have a 
section in the block grant section which appears to say that 
you must have a good outreach and engagement plan in order to 
get the block grant, and that the strategies there may or may 
not have to have AOT in them. So I think a lot of us believe 
that this really aggressive but not coercive outreach and 
engagement, relentless outreach and engagement, is critical, 
and it seems like you are very focused on that, and I think 
that is tremendous. It is on the front end that we are going to 
have to do the most work.
    And the third thing is the Interagency Serious Mental 
Illness Coordinating Committee. I think it really brings 
together all kinds of agencies and leads and expertise. The 
only thing I would say about that is it should include SAMHSA 
and the Centers of Medicaid and Medicare. It is the number one 
funding stream, Medicaid, is in America, and that is our best 
change. The outcomes associated with that, the incentives.
    Mrs. Blackburn. All right.
    Mr. Rosenthal. The things I like the least, well, assisted 
outpatient treatment really had its origins in New York in a 
very big way. I have been working in opposition of that for a 
very long time, and I do that because I don't believe it has 
been proven to be an effective strategy. There have been 
studies, first at Belleview, that gave everybody better 
services, and gave some court orders, and the study found it 
was the more and better services that got it done, not the 
court orders.
    The legislature was so concerned about that that they 
ordered a comparison between voluntary and involuntary--am I 
out of----
    Mrs. Blackburn. Mr. Rosenthal, I am sorry, my time has 
expired, and----
    Mr. Rosenthal. Sorry.
    Mrs. Blackburn [continuing]. If you can submit this----
    Mr. Rosenthal. I will write it to you.
    Mrs. Blackburn [continuing]. In writing. Thank you all so 
much.
    Yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    I now recognize the ranking member of the full committee, 
Mr. Pallone 5 minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask my questions of Mr. Rosenthal. We can't 
talk about mental health coverage without talking about the 
Affordable Care Act's Medicaid expansion. Can you comment on 
how Medicaid expansion has expanded access to mental health and 
substance abuse services? And I ask that because, to put this 
in context, 22 states have declined to expand Medicaid at this 
time, leaving 3.7 million uninsured adults with serious mental 
illness unable to obtain coverage. And I hope those states will 
see both the economic and moral benefit of Medicaid expansion, 
sooner rather than later. And your answer to this question may 
provide some reason as to why they should do that.
    Mr. Rosenthal. Thank you. The Medicaid program of the past 
was a very rigid and limited program, very focused on illness 
and symptom management but not, as I said earlier, about all of 
the domains of recovery that are essential.
    We now have in this country a Medicaid Expansion Program 
and a greater use of Medicaid managed care, where the focus is 
on outcomes and improved services, and a diversity of services, 
including supports for even the social nutriments of health; 
housing, employment, things that really matter in peoples' 
lives. So the expansion, I think, really brings in people who 
currently are shut out, including people in addiction recovery 
and some of the programs that they require. So it is an 
extraordinary time to watch Medicaid reform and Medicaid 
expansion because I think millions and millions of Americans, 
without getting access to that, will be shut out and will be 
subject to poor care and poor treatment.
    Mr. Pallone. I mean is it fair to say that lack of 
insurance coverage is not only a significant barrier, but maybe 
the most significant barrier to someone receiving consistent 
care for a serious mental illness?
    Mr. Rosenthal. Absolutely.
    Mr. Pallone. OK.
    Mr. Rosenthal. And you know where that really turns up is 
people who are in jails and prisons who lose their Medicaid, it 
is shut off, and at that critical moment of discharge, 
planning, if the Medicaid is not in force, people fall within 
the cracks.
    I read somewhere that people in addiction, if they don't 
get help in 20 days, 30 percent of them die. It is a very 
strong figure. So Medicaid access is critical, and in that 
system in particular, people are leaving jails and prisons 
without the services they need, and that is why we get so much 
re-incarceration and tragedy.
    Mr. Pallone. All right, I wanted a second question about 
Programs of Regional and National Significance, the PRNS. H.R. 
2646 would create new grant programs that would be funded 
through a 20 percent cut on Programs of Regional and National 
Significance, and on SAMHSA's general funding authority. And I 
wanted to focus on the possible effect of a 20 percent 
reduction in funding for PRNS grant programs. SAMHSA's Center 
for Mental Health Services currently funds mental health first 
aid training for teachers and other adults who interact with 
youth. That training equips them with the tools needed to 
detect and respond to mental illness in children and young 
adults. That PRNS program received $15 million in fiscal year 
2014 and 2015 to provide grants to states and local education 
agencies.
    So, Mr. Rosenthal, if SAMHSA's PRNS authority was reduced 
by 20 percent, $3 million would potentially have to be cut from 
that program. In general, what would a 20 percent cut in grant 
funding for community programs mean to those existing programs?
    Mr. Rosenthal. Well, I think it would be a loss of access 
for many, many Americans in need. Certainly, the Mental Health 
First Aid Program has been so critical in educating the 
communities, the police, other important groups, and if that is 
cut, then that is that many communities and that many people 
and families who won't have the benefits of first aid.
    I am not familiar enough with all of the Programs of 
Regional and National Significance, but I reviewed them 
briefly, and there are a number of recovery programs that, if 
they were cut by 20 percent, again, where there is a real 
emphasis on AOT and not enough, I think, on the recovery side 
of things.
    Mr. Pallone. Well, in addition to cutting mental health 
programs, H.R. 2646 would cut substance abuse programs to pay 
for those new mental health programs. A program that could be 
cut is funding for states to enhance or expand their treatment 
services to increase capacity and access to evidence-based 
Medication Assistance Treatment, or MAT. And the fact is 
America is facing a public health crisis related to the misuse 
and abuse of opioids, and we should not be cutting, in my 
opinion, any funding for that or for other SAMHSA substance 
abuse programs.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the vice chair of the subcommittee, Mr. 
Guthrie, 5 minutes for questions.
    Mr. Guthrie. Thank you, Mr. Chairman.
    Senator Deeds, I used to serve in the Kentucky State 
Senate, and you mentioned in your testimony that you had 
bipartisan efforts at the state level. You didn't really 
elaborate on those. Can you just kind of--for a few minutes 
of--about a minute or so, what you did, and then how the 
Federal Government can help states doing what you want to do 
there?
    Mr. Deeds. At the state level, when I went back to the 
General Assembly just a few weeks after all of this happened, 
to me, my scars were red and my eyes were too. People there 
knew me because I have been in the General Assembly for a long 
time. I am a bipartisan guy. I am a partisan democrat, but I 
have friends on both sides of the aisle. They knew my son, 
because he had been on the campaign trail with me for years. So 
I was able to cobble folks together to get things done, but the 
reality is that funding is not as consistent as it needs to be 
across the board. We need federal organization. And what this 
bill does in many respects is it takes funding and reorganizes 
it in a way that makes more sense, I think, makes more sense 
for the states, makes more sense for the country.
    Mr. Guthrie. Well, thanks. And I was going to ask Mr. 
Kennedy, my friend, Patrick, this, but you mentioned HIPAA and 
how did HIPAA specifically block what you were hoping to do, or 
how did it affect your situation? I understand that as a 
caregiver, you can't get the information you need.
    Mr. Deeds. Well, I couldn't get psychiatrists to talk to me 
or to even return my calls. I couldn't get people in hospitals 
to tell me anything about what was going on with my son. And he 
was wary of me in the first place, so when I got him to go 
places, I tried for a long time to get him to sign a power of 
attorney or to sign a medical power of attorney to give me 
access to information. I tried to get him to give me that 
authority on some forms that other people had prepared for him, 
and he just wouldn't do it. And the providers wouldn't talk to 
me. I had one provider that sat down and talked to me, probably 
broke the HIPAA law, and maybe it is a lack of understanding of 
the law, but if it is, it is widespread.
    I got an anonymous letter just about 4 months ago from a 
person who told me that he or she had provided care for Gus, 
and had told me some things that touched my heart about their 
treatment of him. I just didn't have the information 
beforehand. It seems to me, let me just tell you. One woman 
called me, or she called my office. She tried to get her adult 
son committed through an involuntary process. She was 
successful. But in the hospital, they wouldn't tell her where 
her son was going.
    Mr. Guthrie. Yes.
    Mr. Deeds. So she couldn't get him his things, she couldn't 
talk to anybody there about his experience. That facility 
wouldn't even return her calls. They just put him on a bus and 
sent him home. How in the world is he going to be kept to 
schedule, is he going to take his medications, is he going to 
keep his appointments if somebody doesn't know it? That is----
    Mr. Guthrie. Understand.
    Mr. Deeds. That is what this legislation----
    Mr. Guthrie. Thanks. I have one more question--well, it is 
not really a question, but Ms. Billingsley brought up some 
concerns. And we want to solve problems, not raise more 
concerns. And talked about the PAIMI program, and if I could 
yield to my friend from Pennsylvania to address some of the 
concerns that you brought up, I would like to do so.
    Mr. Murphy. Well, let me just say this. With regard to some 
things on the protection advocacy issues, now, I can't say that 
there is much that this panel has said that I don't agree with, 
and it sounds like some clarification of wording. Our bill does 
not require assisted outpatient treatment. It does not, and 
that is a misnomer, and I see that in the minority memo, so 
let's make sure we are clear on that. We recognize it can be 
valuable for some people, particularly those who are cycling in 
and out of jail, those of have history of violence. We just saw 
that happen down in Dallas, Texas. I think it can help in some 
cases, but it is not a panacea. But I want to make sure that we 
are focusing on this, and worded this in such a way that people 
can get help and can get that advocacy. It is against federal 
law to use it for lobbying, and I don't intend to change that 
law, but I want to look at something that does need to change. 
And just to follow up on what you were saying to Senator Deeds 
about some individuals have claimed that with regarding to 
releasing any information under HIPAA, it has to be ``as 
necessary to prevent or lessen a serious and imminent threat to 
the health or safety of a person or the public.'' So that is 
the limitation. Do you agree with that kind of limitation?
    Mr. Deeds. I might take it a little broader, but I think 
that that protects a person's privacy. Somebody has to make a 
decision that it is necessary that the person doesn't 
understand what is in their best interests, and that the 
caregiver will provide for that.
    Mr. Murphy. Which is important, and that is where I think 
our bill tries to broaden that. If that person is not aware, to 
provide you with a diagnosis, treatment plan, time, and place 
of the next appointment----
    Mr. Deeds. That is right.
    Mr. Murphy [continuing]. Medications, that would be helpful 
to you as a parent?
    Mr. Deeds. That would be very helpful. Critical.
    Mr. Murphy. I will go back to my questioning later. Thank 
you.
    Mr. Guthrie. Thanks, and my time has expired. I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentlelady from California, Mrs. Capps, 
5 minutes for questions.
    Mrs. Capps. Thank you, Mr. Chairman. And thank you all for 
your amazing testimony.
    For too long, mental health has been left out of our 
discussions about health. I am happy that members of this 
committee on both sides of the aisle have a shared interest in 
addressing this important issue. My background is a public 
health nurse, worked in our community schools. This is an issue 
I know well. I have a brother who has a history of being 
bipolar. I know it personally very well.
    Thankfully, we have made great strides in recent years, 
most notably that all plans must now follow mental health 
parity rules. Many previously uninsured and underinsured 
individuals with mental illness now have access to insurance. 
This was the greatest expansion of mental health services in 
our history, but now one that needs to be built upon. And as 
written, I am concerned that my colleague, Mr. Murphy's, bill 
does not comprehensively advance this progress enough. We need 
to work together to do so, because it does little to address 
mental health issues before they reach that crisis level, help 
individuals after the crisis point has passed. It pits mental 
health and substance abuse services against each other, despite 
the fact that for so many individuals, these are intertwined 
ailments, and needlessly injects partisan politics into the 
mental health space by attaching extraneous abortion language. 
We don't need to be doing that here. It is not a way to move a 
bipartisan bill forward to make meaningful change. Our Nation 
has a history of reacting to mental health issues in a very 
erratic way, swinging from one extreme to another. We need to 
stop the swing, and enact thoughtful evidence-based policies if 
we really truly want to make progress.
    I am hopeful that today's hearing is going to help us look 
beyond a particular bill, and help us have that constructive 
dialogue to move in a positive way.
    Ms. Billingsley, at a previous hearing on this issue I was 
particularly moved by a woman's testimony where she described 
the abuse that took place in her group home, and how the 
protection and advocacy for individuals with mental health 
program, PAIMI----
    Ms. Billingsley. Yes.
    Mrs. Capps [continuing]. Helped shut it down and bring her 
and her housemates to justice. I will never forget her 
testimony. Similar to what you have talked about today. It is 
equally notable. But as you noted, the Murphy bill would tie 
some of the program's hands to protect these individuals from 
unlawful discrimination from educating policymakers like 
ourselves about the issues that these individuals face. I think 
that seems really shortsighted. If the PAIMI program is 
prohibited from advocating for the rights of an individual with 
mental illness, where will families turn to ensure the 
enforcement of laws and regulations?
    Ms. Billingsley. I don't know where they would turn, and 
quite honestly, I don't know where our family would be if we 
had not had their help. I can't even imagine where we would be. 
I often think, and coming here today has brought back quite a 
bit of this journey for our family, it is possible my son 
wouldn't be alive today. It is quite possible----
    Mrs. Capps. That bad.
    Ms. Billingsley [continuing]. Because of the downward 
spiral he was in, and we were no longer able to help him. So if 
that funding was not there, I don't know what we would have 
done.
    Mrs. Capps. Programs like PAIMI are so critical, and you 
said it, to ensuring that families and individuals with mental 
illness have advocates ensuring that their rights are 
protected. We don't want, as it seems to be the case in this 
bill, to tie their hands, and that is another indication in my 
mind that we can do better.
    One bill I am particularly interested in was written by my 
California colleague, Representative Matsui. Her bill, it is 
the Including Families in Mental Health Recovery Act of 2015, 
would clarify HIPAA privacy rules, and would educate providers, 
patients, and families about the law as well.
    Mr. Rosenthal, may I turn to you? Do you think health 
providers adequately understand what HIPAA permits if a patient 
is in a crisis situation? In other words, do we have a problem 
with provider education----
    Mr. Rosenthal. Absolutely.
    Mrs. Capps [continuing]. Or do we need fundamentally to 
rewrite our privacy laws?
    Mr. Rosenthal. I think education is critical. I think 
HIPAA, as I understand it, and also sort of codified, if we 
could codify OCR, the Office of Civil Rights, sort of guidance 
would make it even clearer, but I know that providers at 
minimum are confused or frightened, and at worse, are hiding 
behind HIPAA rather than really--they can listen to families 
now. They may not be able to disclose everything, and there are 
circumstances where they can and they should, and they don't. 
So I think--absolutely, I think education is critical. We can't 
do enough----
    Mrs. Capps. So that is an indication of the ways that we 
have to move past where we are today, even considering this 
bill.
    I am out of time. I will yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    I now recognize the gentleman from Illinois, Mr. Shimkus, 5 
minutes for questions.
    Mr. Shimkus. Thank you, Mr. Chairman. And thank you all for 
being here, and for my colleagues for their great questions. I 
just would encourage my colleagues that if we want to have an 
opportunity to really move a bill, we are going to have to come 
together and be positive and just tweak the language and work 
this through. My colleague, Mr. Murphy, has worked real hard. 
Patrick, it is great to see you again. Senator Deeds and the 
folks' testimonies are just heartbreaking.
    And so the easy question, how many of you on the panel are 
parents? Raise your hand if you are parents. OK. Everyone is a 
parent. So my question is, when do we stop being a parent? I 
don't think we do.
    Ms. Billingsley. No, we never do.
    Mr. Shimkus. You know, my mom and dad, thankfully, are 
going to celebrate their 65th wedding anniversary, and if I do 
something wrong, they are in my face.
    So this HIPAA debate--I said that, didn't I? Dang. That is 
our secret. Don't tell anybody. But this HIPAA debate is very, 
very important, and I think we really need to get it right. I 
still have young--not young, but young men who, some of this 
onset comes at different times. And I fear the day where they 
need help and we can't get access to information. And so I am 
very encouraged by the talk and this whole debate because we 
want to be engaged.
    My question is to Dr. Lieberman on--asking you if you have 
any sense of what kind of clinical outcomes are associated with 
the emergency department overcrowding for patients requiring 
medical or psychiatric services?
    Dr. Lieberman. Well, the overcrowding and the increased 
demand relative to capacity simply sort of backs up people who 
are waiting to be seen, makes the health care personnel kind of 
rushed in the process of being able to do the evaluation, and 
then if the disposition is hospital admission, which it 
frequently is because there is a paucity of available beds, 
they must sit there. In New York State, there is a law that you 
have to make a disposition of somebody in an emergency room 
within 48 hours. It sounds long, but many people sit there for 
longer. We have had patients in the emergency room for as long 
as 6 months. That means they have to be fed, bathed. And the 
reason why this occurs is because if you have what is called an 
intellectual or developmental disability, autism, Fragile X, 
any of the genetic neurodevelopment disorders, and a 
complicating psychotic disorder, there is no place for you to 
go. So it is ridiculous.
    But it really prompts me to sort of comment on some of the 
discussion we have had here about the various programs, 
Community Access and so forth, Harvey Rosenthal's excellent 
work as a rehab director. We are not having a discussion about 
excluding programs, but this is all part of a comprehensive 
effort. Mental health care is disease management, it is not 
simply a doctor giving a pill, or a rehab counselor, finding 
housing or teaching a skill. But when you have cancer and you 
have to go--let's say you have breast cancer or prostate cancer 
or--you go and make a recommendation, surgery, possibly 
radiation and chemotherapy. If the surgery disrupts your 
musculature, you might need rehab. Oftentimes there is a 
psychiatric component to it. All of these things are a part--
right now, we can't provide those because there is not a 
collocated availability of these services, and a revenue stream 
for financial reimbursement. So it is all fragmented, and as a 
result of this--and I appreciate the effort here because this--
if anything can rise to be a bipartisan cause, this should be. 
This is not like we have to discover something new and 
mysterious. The expertise, the tools are available, we simply 
have to develop the policy to be able to orchestrate it. And 
what concerns me is that ideological issues are permeating and 
kind of diverting attention from the real issues. If you look 
at SAMHSA's Web site where they have a list of 360-plus 
interventions, there is no mention of medication. Now, I am not 
a cowboy doctor that is going to prescribe massive drugs and 
say, ``See me in a month,'' to people. That is not what 
physicians do, and it is certainly not what psychiatrists do. 
But how can you have a list of interventions with no 
medication? It is like if you are going to go--it is like 
Steven Jobs, he refused surgery because he wanted to try a 
naturopathic approach. It shouldn't be exclusionary. We need to 
have a big picture approach to this in order to be able to 
really deal with this problem. And how long is it going to take 
us to appreciate it? How many Newtowns, how many Aurora, 
Colorados, how many Jared Loughners, is it going to take for 
this to happen?
    Mr. Shimkus. My time has expired so thank you.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentlelady from Illinois, Ms. 
Schakowsky, 5 minutes for questions.
    Ms. Schakowsky. Thank you, Mr. Chairman. I apologize to the 
panel, there are concurrent hearings going on.
    I want to especially welcome my friend, Patrick Kennedy, 
for being here. And of all the ways that you have contributed, 
the many ways, I want to thank you for decreasing the stigma 
attached to mental health issues. Thank you for that, Patrick.
    Before I begin my questions, I want to first say I am very 
concerned that we are unnecessarily seeing antiabortion 
language included in this bill. We do not need to attach this 
kind of restrictive language on programs that help to prevent 
suicide and provide transitional housing for people with mental 
illness. And moreover, the language in this bill actually goes 
a step beyond the Hyde Amendment and restricts funds from being 
used to refer a woman to abortion services and, if anything, a 
provision that would probably guarantee increased mental 
anguish. Women deserve to have access to the full range of 
health services. At a minimum, have a right to know what 
services are available to them. So this language continues a 
dangerous precedent of attaching language restricting a woman's 
access to reproductive health services in bill that address 
different topics.
    But let me move on. I would also like to address the 
drastic changes H.R. 2646 would make to the Protection and 
Advocacy for Individuals with Mental Illness Program. In 
Illinois, our protect and advocacy organization, Equip for 
Equality, has worked tirelessly to advocate for individuals 
with disabilities for 30 years. Not only has Equip for Equality 
secured housing and services for individuals with mental 
illness, but they have also worked to affect public policy. For 
example, they worked with state officials to create an adult 
protective services system which works to prevent abuse, 
neglect, and exploitation of adults with disability. They also 
have advocated for the continuation of services that will allow 
medically fragile children to remain in their communities 
rather than in institutions, and yet this legislation would 
actually prevent Equip for Equality from doing this important 
work.
    So, Ms. Billingsley, I want to thank you so much for 
joining us today to share your personal story of your family 
and son, Tim. As important as it is for PAIMI to address abuse 
and neglect, many people like Tim face hardship due to their 
mental illness because of discrimination and navigating the 
complex mental health care system. Families are often not able 
to find the help their family member needs, regardless of how 
hard they try. I have actually experienced that in my own 
family.
    You said in your testimony that Tim is just 22 years old. 
Could you further elaborate in how Tim's illness manifests 
itself, and why it is important to Tim to be in the community?
    Ms. Billingsley. Tim is going to be 23 next month, so he is 
pretty excited about that. The way his mental illness manifests 
itself is that he is highly needing to have structure on a 
regular basis for him, and he is a very talkative person, and 
he is very social. And if he is isolated for very long, he acts 
out with that. That goes against what he wants to be around 
with--or be with people. He also has a seizure disorder, and I 
bring that up simply because he needs to have family and 
community around him to help take care of that issue if that 
were to come about, and we have had a few situations with that. 
He currently lives in a home with five other young men, and he 
is very hasty to tell me it is time for you to go, which took 
me a little getting used to, to be quite frank. But he has a 
full life without me, and he needs that community setting to 
live his life well beyond the time I am here.
    Ms. Schakowsky. So let me ask you this. Do you think you 
have would have been successful in securing Tim's right to stay 
in the community if the Disability Right Center of Kansas had 
not been allowed to advocate on his behalf?
    Ms. Billingsley. No, there is no way.
    Ms. Schakowsky. What would have happened then?
    Ms. Billingsley. It is kind of similar to what else has 
been shared here today. We wouldn't get phone calls returned. 
We wouldn't get responses when we asked about programs. We were 
on waiting lists for services during a time in which my son 
would become violent at home, and there were concerns with the 
safety of our own family. If we had not had their intervention, 
as has mentioned here within 48 hours, when we needed it, we 
would have to have been hospitalized, I am sure.
    Ms. Schakowsky. Thank you. I would like to ask unanimous 
consent to put into the congressional record, Congressional 
Research Service memorandum.
    Mr. Pitts. Without objection, ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. Thank you.
    Mr. Pitts. Gentlelady's time has expired.
    Ms. Schakowsky. Thank you very much, I yield----
    Mr. Pitts. The chair now recognizes the gentleman from 
Pennsylvania, prime sponsor of this legislation, Dr. Murphy, 5 
minutes for questions.
    Mr. Murphy. Mr. Chairman, before I start, I just want to 
ask that a couple of things be submitted to the record. One is 
the GAO report this committee requested called Mental Health 
HHS Leadership Needed to Coordinate Federal Efforts Related to 
Serious Mental Illness. \1\ Second is the GAO report requested 
by this committee called Mental Health Better Documentation 
Needed to Oversee Substance Abuse in the Mental Health Service 
Administration. \2\ Third is from the HHS Office of the 
Assistant Secretary for Planning and Evaluation, called 
Evidence-Based Treatment for Schizophrenia and Bipolar 
Disorders and State Medicaid Programs. And finally, a list of 
materials I would like to submit for the record, the statement 
from the American Roundtable to Abolish Homelessness, and 
letters of support from the American College of Emergency 
Physicians, the National Council for Behavioral Health, the 
National Alliance on Mental Illness, the American Psychiatric 
Association, the American Academy of Child and Adolescent 
Psychiatry, and the American Psychological Association.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
---------------------------------------------------------------------------
    \1\ The report has been retained in committee files and is also 
available at:http://docs.house.gov/meetings/if/if14/20150616/103615/
hhrg-114-if14-20150616-sd017.pdf.
    \2\ The report has been retained in committee files and is also 
available at:http://docs.house.gov/meetings/if/if14/20150616/103615/
hhrg-114-if14-20150616-sd014.pdf.
---------------------------------------------------------------------------
    Mr. Murphy. Thank you.
    It is an amazing day that all of you are here, and Congress 
is gathered to talk about such a critically important subject. 
Let's not forget that. We have a massive amount of common 
ground here. We have to link arms together and do this. And I 
thank my colleagues for their thoughtful comments in this as 
well.
    Let me dig down in a couple of these things which I think 
are important in this bill. Mr. Gionfriddo, in this bill, we 
lay out a greater emphasis on secondary and tertiary 
prevention, and say you have to put some more dollars into 
child and adolescent areas rather than wait until later on. 
Could you describe why that is important to you, why you think 
it is important to focus on those areas?
    Mr. Gionfriddo. Well, I think it is critically important to 
focus in on children. The date are 50 percent of mental 
illnesses manifest by the age of 14; \3/4\ by 25. But for a lot 
of us the statistics don't matter. My son was 5 when he 
developed signs and symptoms of schizophrenia. And he got the 
10-year delays everybody else gets by the time he got his final 
diagnosis, 10 years that we lost opportunity after opportunity 
to change the trajectory of his life. That is one of the 
reasons he is homeless now, not by his choice, but by choices 
we made as policymakers to do that. It is critically important 
we move upstream. We have to arrest this at stage 1, 2, and 3. 
We can't keep waiting until stage 4. We can't keep waiting for 
crises to occur, we can't keep waiting post-crisis, we have to 
move upstream. That is why it is important to me.
    Mr. Murphy. Now, I might add for my colleagues, what I mean 
by primary prevention is what we tell everybody, secondary 
prevention is now you identify the high-risk group, and 
tertiary is someone who is with symptoms. And that is important 
because, as we go through in the grant programs what the GAO 
report said about SAMHSA is, quite frankly, they weren't 
documenting, they weren't evaluating, programs that got grants 
didn't stick to their grants, so it is important we have that 
oversight.
    I also want to note with regard to the issues with regard 
to Medicaid services here, that in this report from Office of 
the Assistant Secretary for Planning and Evaluation, it said 
only 45 percent of beneficiaries with schizophrenia, and 35 
percent with bipolar disorder, maintained a continuous supply 
of evidence-based medications, and received at least one 
psychosocial service during the year. In other words, these 
reports are saying our system is failing pretty bad in this.
    Patrick Kennedy, you and I have talked a great deal about 
this issue of an Assistant Secretary, and their role to get the 
Federal Government coordinated in these symptoms, to follow 
through on parity, and to report back to Congress. You have 
been here. You understand what it is like. What do you see the 
value of having someone go through these 112 federal agencies, 
get the data from the states, and keep Congress' feet to the 
fire in this? What do you see the value of that in moving 
forward in the long run?
    Mr. Kennedy of Massachusetts. Well, thank you, 
Representative Murphy. First, to your previous question to 
Paul, would say we could solve this crisis tomorrow if we 
intervene on first incidents of schizophrenia. There is no 
mystery in this country how to avoid the over-hospitalization 
and crisis management. We are picking up the pieces after 
people have fallen off the cliff. We know what to do. Intervene 
right away with first onset. Don't let the time lapse. And as 
Paul said, you permanently change the trajectory of those 
people. So for people who are interested in return on 
investment, your investment is a lifelong disability is averted 
if you do that wraparound services, first incident.
    So, Representative Murphy, I appreciate that being a major 
focus. The raise work that is being done now is the model. 
Naples is the model. The prodromal phase scientifically before 
symptoms is really what our Holy Grail should be. And we can do 
that with scientists like Jeff Lieberman.
    To the answer on accountability, we are in a new post-
parity world. We have the legal infrastructure to appeal when 
people aren't being treated equitably under the parity law. And 
I appreciate the fact in this legislation you have a specific 
GAO report evaluating non-quantitative treatment limits. That 
is the secret way that insurance companies deny care. They keep 
it behind, of course, we have eliminated the quantitative 
treatment that sets premium discrimination, copay 
discrimination, lifetime limit--that is gone. So now where has 
the discrimination moved? It has moved to this non-quantitative 
treatment limit.
    If we expose that, which your bill, among many other things 
calls for greater transparency and accountability, I am telling 
you, you are going to see a sea change in the way that we move 
towards this problem, because we are not going to be waiting 
for it to become crisis. It is going to be evident to insurers 
that it is more cost-effective for them to intervene early. So 
I appreciate that. And the state reporting is key because, as 
you acknowledge in this bill, it is the states' mandate to 
continue to work in implementing this law. We need to have an 
accountability structure to see how they are doing, and I 
appreciate that also being in this legislation.
    Mr. Murphy. Thank you.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentlelady, Ms. Castor, 5 minutes for 
questions.
    Ms. Castor. Well, thank you, Mr. Chairman and Mr. Green, 
for calling this hearing today. And I want to thank the panel 
for relaying a sense of urgency for the Congress to act when it 
comes to mental health. And thank you for your expert 
recommendations on how to improve the bill today.
    And, Congressman Kennedy, it was great to see you a few 
months back at the Florida Mental Health Research Institute in 
Tampa, at the University of South Florida. They presented 
Congressman Kennedy with the Humanitarian Service Award that is 
very well-deserved. So it is great to see you.
    I want to keep the focus on implementation of the Mental 
Health Parity Act. There is an important provision in the draft 
bill that would require the Department of Labor to submit a 
report to Congress identifying federal investigations conducted 
or completed during the previous year regarding compliance with 
parity in mental health and substance abuse disorders under the 
Mental Health Parity Act. Remember, that Act enshrined in law 
that principle that mental health is equivalent to physical 
health. And the law required group health insurance plans 
covering mental health and substance abuse services to cover 
them at parity with physical health services.
    Then the Affordable Care Act extended this principle to the 
individual health plan market. It also requires that all 
expanded Medicaid programs, as well as individual and small 
group health insurance plans, cover mental health and substance 
abuse services as part of the essential health benefits 
package. That is critical. The ACA expanded these benefits and 
parity protections for 62 million Americans.
    But Congressman Kennedy, in the beginning of your testimony 
you referenced the difficulty with implementation. You are 
hearing about insurance companies' compliance or noncompliance 
with the parity requirements, is that accurate?
    Mr. Kennedy of Massachusetts. Absolutely accurate. And if 
members want to make a difference tomorrow on getting more 
people care than they have today, write a letter to Secretary 
Perez from the Department of Labor, because Secretary Perez can 
issue greater guidance on all ERISA plans, that is employers' 
insurance plans, that this should be a greater evaluation on 
whether they are complying with a federal law. He can issue 
guidance tomorrow. He needs to hear from you that you want him 
to do that, because 65 percent of the health market is that 
employer-sponsored health care. And our veterans, by the way, 
are going to depend on their health plans, if they are 
employed, having coverage for their signature wounds of war.
    Two, you could write a letter to Secretary Burwell from 
HHS. She has the authority today to issue greater disclosure 
requirements on all insurance companies so that we can better 
understand how they do medical management, because as you know, 
Representative Castor, the key to this is the utilization 
management, how they move those things around. We under parity, 
by necessity, need to know how to compare the way they do 
utilization management for the mental health patient, to the 
way they do utilization management for the stroke patient, for 
the cancer patient, for the diabetic. If we know how to draw 
those analogs, we can enforce parity because the law would 
require that they do something different than they are 
currently doing.
    Ms. Castor. Other panel members, are you hearing about 
difficulties with implementation of the important goals of 
mental health parity? Mr. Gionfriddo?
    Mr. Gionfriddo. Absolutely. I think that everybody 
understands that the law has changed, but the implementation 
law hasn't fully taken place yet. And we deal with this every 
single day at Mental Health America. We are hearing a lot about 
this, and strongly endorse efforts to try to make certain that 
we realize all the benefits of parity for all the people we 
care about.
    Ms. Castor. Mr. Rosenthal?
    Dr. Lieberman. I can----
    Ms. Castor. Yes, go ahead.
    Dr. Lieberman. I can add to that. When I was in my role as 
President of the American Psychiatric Association, we had to 
make decisions about which litigation to pursue against various 
insurance companies that were denying benefits or not complying 
with the parity law. And what it ultimately came down to was 
the fact that we had a very strong case in almost all 
instances, but there were such deep pockets on the side of the 
insurers that financially, they just drained us. And so it 
became a much more complicated sort of battle to fight, and I 
think we are still engaged in that battle.
    Ms. Castor. Well, I want to thank you all. Really, I think 
with Mr. Murphy's help, we can look at ways to improve this. If 
you all, when you are submitting comments back to the 
committee, would make some specific recommendations here. And I 
also appreciate Ranking Member Pallone bringing up the Medicaid 
expansion, the importance of it. The State of Florida, 
unfortunately, just last week, rejected a republican State 
Senate plan to expand Medicaid in Florida. That leaves about 
800,000 of my neighbors across the State of Florida in that 
gap, leaves billions of dollars of our taxpayer dollars here in 
Washington, rather than bringing them back home. So if you all 
can talk to policymakers in the State of Florida, please relate 
to them how important Medicaid expansion is for mental health 
services.
    Thank you.
    Mr. Pitts. The chair thanks the gentlelady.
    I now recognize the gentleman from Virginia, Mr. Griffith, 
5 minutes for questions.
    Mr. Griffith. Thank you very much, Mr. Chairman. Thank you, 
members of the panel, for being here this morning, particularly 
Senator Deeds. It is so great of you to be here. Your story is 
obviously very compelling, and when the incident occurred with 
your son, the entire region was affected by it. And we 
appreciate you being here.
    That being said, one of the reasons I asked to be on this 
particular subcommittee was so I could talk about rural health 
care issues. And how long have you been in the state 
legislature, 24 years?
    Mr. Deeds. Twenty-four years. Got there one term before 
you.
    Mr. Griffith. That is what I was thinking. And you live 
about, what, 9 or 10 miles outside of the 9th Congressional 
District?
    Mr. Deeds. I used to be one of only two members in the 
State Senate that was on the dirt road, off a dirt road caucus, 
but the other fellow retired, so I am the last one that lives 
on a dirt road, off a dirt road.
    Mr. Griffith. There you go.
    Mr. Deeds. It is about 9 miles out of the 9th District.
    Mr. Griffith. So that brings up the issue, you worked very 
hard and got some great legislation through in Virginia to make 
sure that there was a mental health bed registry available to 
the people of Virginia. But I noticed in an article late last 
year that Eastern State is getting a lot of patients because 
they are the location that has beds, and they are the beds of 
last resort. And I am wondering if we need to be thinking about 
encouraging the states to participate in a national bed 
registry, because you are also not far outside the 9th. How far 
are you from West Virginia----
    Mr. Deeds. I am not far from West Virginia at all, and I 
am----
    Mr. Griffith. Ten, 15 miles?
    Mr. Deeds. Probably a little bit further than that, but not 
very far. Twenty-five miles. And national registry might make 
some sense. It might make some sense, but as you know, and we 
in Virginia have also turned down the Medicaid dollars. They 
provide insurance to about 400,000 Virginians and about 162,000 
of them have serious mental illness. Pretty significant for us.
    Mr. Griffith. Yes. And mental--I will agree with you that 
mental health issues are things that we need to take a look at 
and be very serious about.
    I am also concerned about the HIPAA requirements that you 
weren't able to know. Whether it is a misunderstanding or not, 
we need to change the language to get rid of the 
misunderstanding----
    Mr. Deeds. Absolutely. Yes.
    Mr. Griffith [continuing]. To make it clearer. I think this 
bill does a lot of that. One of my concerns is, and I know you 
have only read the summary of the bill, is that in the sections 
on HIPAA, we get family members involved, which I think is 
great. My concern is the family member--and I know you have 
practiced in this area, or at least most rural lawyers have, 
where somebody has abandoned the family when somebody is a 
juvenile, and you think it might be helpful if we put language 
in there. We have excluded people who have a documented history 
of abuse, but do you think it might be helpful if we also 
excluded family members who have abandoned a juvenile----
    Mr. Deeds. That----
    Mr. Griffith [continuing]. Before the incident--obviously, 
as an adult, but when they were a juvenile, abandon them?
    Mr. Deeds. I think that language needs to be clear. The 
summary I read does make clear that there has to be some kind 
of caregiver relationship between the family that is going to 
have information and the person that is affected.
    Mr. Griffith. And I appreciate that.
    I have a little bit of time left. It is great to see you--
--
    Mr. Deeds. Thank you very much.
    Mr. Griffith [continuing]. And appreciate you being here. 
Is there anything else that we haven't touched on that you 
wanted to touch on?
    Mr. Deeds. I think we have touched on a whole lot, yes. 
Thank you. Thank you for asking.
    Mr. Griffith. All right, and we have.
    Mr. Murphy. Gentleman would yield time, or----
    Mr. Griffith. Yes, well, I can. The gentleman from 
Pennsylvania is requesting my time, and I would like to yield 
to Mr. Murphy.
    Mr. Murphy. I thank the gentleman from Virginia.
    Dr. Lieberman, I want to clarify something about HIPAA, 
because I hear a lot of talk about it, but you are the only one 
on this panel, as I understand, who is a licensed provider who 
has to follow HIPAA laws in that sense as in your doctor role 
there. Is it just a matter of getting education out to other 
providers and saying if only you follow this, everything is 
going to be fine, or do you think there needs to be some 
changes in what you are allowed to tell loving, caring family 
members who are the provider? What do you think?
    Dr. Lieberman. Referring to in terms of the HIPAA----
    Mr. Murphy. In terms of HIPAA----
    Dr. Lieberman [continuing]. HIPAA discretions?
    Mr. Murphy [continuing]. I mean the restrictions at HIPAA 
now, what you are allowed to tell someone, is it just educating 
them or do we really need some changes?
    Dr. Lieberman. Right, it is certainly more than education 
because there is a medical-legal aspect to it that health care 
institutions are cognizant of, and doctors have the fear of God 
placed in them by not just their hospital CEOs but also the 
personal injury lawyers.
    Mr. Murphy. So right now then, and along those lines, if 
you were seeing Creigh Deeds, and he says, can you tell me 
about my son, can you just tell me what is his diagnosis, when 
is his next appointment, where is he, I want to get in there. 
Would you be allowed to say that as existing law is now?
    Dr. Lieberman. Right. Strictly speaking, no. If he is an 
adult, if he is overage, but if you did it, you would be doing 
it at your own risk because you could be sort of challenged. 
Doctors often do that, but I don't want to get into that 
because it is the commonsense thing to do.
    Mr. Murphy. OK, thank you.
    Mr. Griffith. I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentlelady from California, Ms. Matsui, 
5 minutes for questions.
    Ms. Matsui. Thank you, Mr. Chairman. And I want to thank 
all of you for being here today. Your testimonies have been 
very compelling, the full range of mental health.
    And first of all, let me just say I agree with Congressman 
Kennedy about the continuum of care. We should not allow 
prevention, intervention to go against the serious mental 
illness. It is just a continuum of care. This is what we are 
talking about today. And the emphasis should be on the mental 
health of an individual. And I believe in prevention and 
intervention at the early end, and all of the services that 
have to be provided, and that has been my history. I have 
always been feeling that way. And I think that what is really 
important here to look at too is the fact that we have been 
focusing many times here on serious mental illness, because we 
know how tragic that is. Whether or not it ends tragically, I 
know in my family, I have a sister who has been severely 
mentally ill for a long time, and during that time, she really 
did not have the care because it was a long time ago. I think 
today she would probably be functioning much better, much like 
your son, Ms. Billingsley. But I would have to say this. I have 
been affected very much by the tragedies that have occurred. I 
have a couple of friends who have adult children who have, they 
felt, been limited by not being able to assist them. And 
listening to you, Senator Deeds, I feel that pain again. And I 
thought that the importance of this bill, because it covers 
such a broad range, and HIPAA has come up so very often, and I 
think that HIPAA should be not looked at as an enemy here, and 
we can't use it as an excuse either. I think we really need to 
figure out what can we do with HIPAA. And I have spent a lot of 
time thinking about this, and also asked myself what can we do 
about these situations when it feels like there is no 
communication and no one to turn to. And I really thank you for 
working with me to answer that question, specifically for these 
issues about sharing information and communications between 
providers and caregivers. We have to walk a fine line here. We 
must protect the patient's right to privacy, and protect them 
from those who don't have their best interests at heart, but we 
must also empower families and loved ones to be able to help.
    I think my bill strikes that balance. It is not a wholesale 
change. I don't believe we can do that because HIPAA should 
cover both mental and physical illnesses. It just can't be one 
versus the other. This bill is really supported by mental 
health advocates that really fall on both sides of the mental 
health policy issues, as well as groups in between. Groups like 
the American Psychiatric Association, the Bazelon Center for 
Mental Health Law, the Mental Health Association of California. 
And additionally, I thank Congressman Kennedy and the Kennedy 
Forum for recognizing the importance of this bill. I thank 
NAMI, the Treatment Advocacy Center, the National Council for 
Behavioral Health, the American Psychologic Association, and 
others for their help. I really feel that this is something 
where we just can't just say we are going to change it. We have 
to look at it to find out how we can change it, and I believe 
that this bill strikes the right balance.
    And, Congressman Murphy, I also believe that your bill is 
something we can work with, and I would like to work with you 
on it. And I think you have heard from people on my side of the 
aisle that they feel that there are really good points to this, 
and there are adjustments that have to be made, and I think 
people on the panel have expressed the same also. So I feel 
strictly that today we should feel heartened that we are 
actually drilling down and trying to find some solutions to 
this, and that to me is probably the most important outcome of 
this because, as we move forward, we pledge to do something 
here that makes real sense.
    And just to comment on my bill here. Mr. Rosenthal, can you 
describe any situations where it would be important to protect 
the patient's right to privacy?
    Mr. Rosenthal. I am struggling for a little bit here, I was 
caught off guard. Sorry. I think that patients really want to 
feel a sense of integrity and choice, and I think if they 
really are already feeling fearful, don't want to feel like 
their caregivers and the therapists are talking whenever 
possible about them without them.
    Ms. Matsui. OK. Can you think on the other side of this 
situation, when it would be appropriate and even necessary for 
a provider to communicate or share information with a patient's 
family?
    Mr. Rosenthal. When somebody's health and welfare and 
safety are at risk, the person or someone else, I think that is 
critical. So I think those are critical sort of----
    Ms. Matsui. OK.
    Mr. Rosenthal [continuing]. Considerations.
    Ms. Matsui. All right. I yield back. Thank you.
    Mr. Pitts. The chair thanks the gentlelady.
    The chair recognizes Dr. Murphy for a unanimous consent 
request.
    Mr. Murphy. Mr. Chairman, just to correct the record on the 
misrepresentation or perhaps misunderstanding about abortion. I 
ask that S. 1299, the Garrett Lee Smith Memorial 
Reauthorization Act, authored by Senator Jack Reed of Rhode 
Island, be introduced into the hearing record. It is Senator 
Reed's legislation, endorsed by the American Foundation for 
Suicide Prevention, which is identical to the language of H.R. 
2646, the Helping Families in Mental Health Crisis Act on 
Suicide Prevention.
    Mr. Pitts. Without objection, so ordered.
    [H.R. 2646 is available at:http://www.gpo.gov/fdsys/pkg/
BILLS-114s1299is/pdf/BILLS-114s1299is.pdf.]
    Mr. Pitts. The chair recognizes the gentleman from Florida, 
Mr. Bilirakis, 5 minutes for questions.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. And thank you for holding this hearing. Very 
important hearing.
    Last December, I had the pleasure of hosting Congressman 
Murphy in Florida for a mental health roundtable with 
stakeholders from the community. I commend him for the 
extensive amount of time he put into addressing mental health 
and substance abuse disorders. I also serve on the Veterans 
Affairs Committee, where we have extensively focused on mental 
health issues plaguing our veterans, our true American heroes. 
In 2012, Time magazine wrote that more U.S. military personnel 
sadly have died by suicide since the war in Afghanistan began 
than have died fighting there. Mental health is an important 
issue, and I am glad we are addressing it. Thank you, 
Congressman Murphy.
    A question for Dr. Lieberman. Dr. Lieberman, training for 
law enforcement that addresses how officers can best approach 
individuals with mental health or substance abuse issues has 
been extremely important in my community. Training programs 
that establish a partnership between law enforcement and mental 
health groups have effectively been implemented in my district. 
Since this legislation provides the creation of such programs, 
can you provide some insight about what effective training 
might entail, what should law enforcement be aware of when 
encountering individuals with mental health or substance abuse 
disorders in the line of duty, how could a lack of training 
cause an escalation in these encounters?
    Dr. Lieberman. Thank you for that question. This really is 
a very important but also unfortunate situation that has arisen 
in which the law enforcement and criminal justice system has 
become so intertwined with mental illness and mental health 
care. Every time I see a terrible story about a mentally 
disturbed individual being subdued and possibly injured or 
killed by police, I am thinking why are the police called upon 
to be first responders? That is really not their training. And 
similarly, in correctional officers in jails or prisons, 
because of the increasing number, that is not their training, 
and even if they do have some in-service training about this, 
it really is not sufficient.
    So I think both criminal--and it is interesting you ask 
that because just this past Friday, I was speaking to 500 
attorneys in the Manhattan District Attorney's Office. They 
asked me to come down to speak to them about mental illness, 
what the nature of it was, what it looked like, and also how 
could they try and adapt so that they could better manage the 
process of judicially reviewing cases of individuals who 
clearly have mental illness. So this is a growing problem.
    I think training is important, both for the police as well 
as for the criminal justice system, but frankly, if we are 
going to basically launder our mentally ill through the 
criminal justice system, both juvenile and adult, we probably 
need to have mental health professionals embedded with the 
police and more present within the prisons, in the jails. This 
is the new normal or the new reality, and we need to provide 
care where it is required.
    I was having a conversation with individuals at that 
meeting on Friday where I offered the observation that, in 
adult prisons, you have people principally who are adults, who 
are either psychotic, with schizophrenia, bipolar disorder, 
possibly psychotic depression, and substance abusing. 
Predominant diagnoses. In the juvenile detentions, it is kids 
who have what are regarded as antisocial behaviors and conduct, 
but in many respects, I would even venture to say it is the 
majority, these individuals start out as individuals who have 
learning disabilities or what is scientifically called 
pediatric cognitive disorders. They have dyslexia, they have 
ADHD, they have nonverbal learning disabilities, and they can't 
connect with the world socially, educationally, and because 
they aren't succeeding, they are getting kind of negative 
feedback, they react to it in an obstreperous or disobedient 
way, and that leads them down this path and they end up in 
prisons. So it gets to what Patrick was saying about, we are 
sort of addressing this downstream, closing the barn door after 
the horses have left. But either we give a modicum of training 
to our law enforcement and correctional people, or we embed 
mental health professionals or we really go for the big 
solution which is preempting the flow of individuals into the 
legal system to begin with.
    Mr. Bilirakis. Thank you. Thank you very much. I will yield 
back. I don't have any more time. Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentleman from Maryland, Mr. Sarbanes, 
5 minutes for questions.
    Mr. Sarbanes. I thank you, Mr. Chairman. I want to thank 
the panel. Patrick, welcome back. It is great to see you. I was 
talking to Dr. Nancy Grasmick the other day when I was working 
with you on brain research affecting early childhood, and she 
is incredibly excited about the work that you all are doing 
together. And I worked for her for 8 years, so I can tell you 
if she is excited, it has to be good stuff. So congratulations 
on that, and thank you for your testimony here today.
    There is no question that we still live in a world where, 
when we see physical pain, our impulse is to treat it, and 
unfortunately, when we see mental pain, our collective impulse 
often is to look in the other direction. And the first step 
towards remedying that, a critical step, obviously, is to make 
sure that our health care system acts with the kind of parity 
that Patrick Kennedy and others fought so hard for, and is now 
embedded in the Affordable Care Act.
    There is this tension as we think about how to distribute 
resources across a health care system that is more sensitive to 
issues of mental health between, sort of where along the 
spectrum do you place the resources to maximize the positive 
impact you can have. When you are talking about people that are 
on that spectrum of illness, intervening in an earlier stage 
may be intervening when the illness is less acute, more 
moderate. And so that is something that I know we are trying to 
sort out in the deliberations over this bill and other 
proposals that have come forward.
    It occurred to me that a lot of the debate over what kind 
of information can be made available to parents, for example, 
or family members of people that are suffering from mental 
illness, occurs because those suffering are of adult age, and 
that is when these protections kick in, which, to my mind, just 
emphasizes the importance of early intervention, because 
presumably early intervention, intervention at first instance, 
as Patrick indicated, would oftentimes be intervention that 
occurs before the individual reaches the age of majority and 
these protections kick in. So if we could promote more of that, 
we are not going to be diffusing all the situations where you 
have these kind of competing considerations between privacy and 
delivering care, but we will be addressing a significant number 
of them. And also presumably, just promoting a broader and more 
open and more candid conversation among all the affected people 
in the equation so that you begin to build a relationship and a 
communication, a conversation, that can help support that 
individual as they move forward. One that includes family 
members and includes caregivers, and so forth.
    And finally, early intervention, I presume, has to promote 
parity. And we talk about sort of legal parity and health 
insurance coverage parity, but the greatest challenge we face, 
obviously, is achieving parity in a judgment that society 
delivers upon one kind of illness versus another. And I think 
that we all want to get to a place where our reflexive response 
to someone who is suffering from mental illness is on par with 
the way we respond to those who are experiencing a physical 
trauma, kind of in the traditional sense.
    I am committed to this ongoing conversation. I thank 
Representative Murphy for putting this in front of us for 
discussion. I thank Representative Matsui for her important 
contribution to the conversation. It is something we have to 
continue going forward.
    And I don't really have any questions, just to thank you 
all for your testimony today. And I will yield back.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentleman from New York, Mr. Collins, 5 
minutes for questions.
    Mr. Collins. Thank you, Mr. Chairman.
    Before I get started, I just need to go out of my way to 
thank Congressman Murphy for his tireless work on the important 
issue we are here talking about. As a cosponsor of this bill 
last Congress, I am pleased to see this moving forward. This is 
certainly one step in that process. But I want to particularly 
thank Congressman Murphy for adding into this bill Section 
207(d), a version of the Ensuring Children's Access to 
Specialty Care Act, which I introduced earlier this year with 
Congressman Joe Courtney. This provision adds child and 
adolescent psychiatrists to the loan repayment program in the 
National Health Service Corps, or NHSC, for those doctors who 
practice in underserved areas. I believe this is an important 
step forward in getting mental health treatment to children, 
and I will continue to work to ensure that all pediatric 
subspecialties are covered in the NHSC program.
    I think we have covered a lot of the details today, but I 
did hear, Mr. Rosenthal, you mentioned, and I know you are a 
supporter of Obamacare, and we can all agree to disagree on 
certain things, you certainly let it hang out there that 
because of Obamacare, in the Medicaid expansion in those states 
that have accepted Medicaid expansion, they are offering 
significantly better different programs in mental health than 
the states that did not accept expansion. And I guess in the 
category of you don't know what you don't know is always--it 
has been my impression that with one minor exception, which is 
an optional minor demonstration program dealing with 
reimbursement for emergency inpatient psychiatric care, with 
the exception of that, the main thing that the Medicaid 
expansion did was change the income guidelines under which 
patients would qualify for Medicaid. States that accepted the 
expansion were able to get people in at a higher income level 
than states that didn't. But I wasn't aware that there was this 
wide area of different programming, et cetera, et cetera, going 
on. So I guess all I can do is say I kind of take issue with 
that piece of it which is kind of hung out there. But also I 
just want to bring up, we had under Chairman Murphy, a hearing 
on SAMHSA, and in that clearly, this committee was generally 
not happy with some of the outcomes, the expenditures of money, 
and so forth. And I know I--correct me if I am wrong, but I 
think the majority of your funding comes from SAMHSA, so you 
are--doesn't. But I am assuming you are well versed in what 
SAMHSA does.
    Mr. Rosenthal. I would say 3 percent of my funding----
    Mr. Collins. OK.
    Mr. Rosenthal [continuing]. Comes from----
    Mr. Collins. But I know you do deal with SAMHSA and get----
    Mr. Rosenthal. Yes.
    Mr. Collins. OK. So I guess kind of as a pick-up on that 
particular hearing, I believe this committee would like more 
local control of dollars, good reporting coming back, because 
SAMHSA is a funding mechanism to get grants out. Could you 
share with us here your thoughts on SAMHSA and how we might 
have the taxpayer dollars go to better use with that funneling 
mechanism, have you got any recommendations? I don't know that 
it belongs in this bill or not, but we would just be interested 
in your observations there.
    Mr. Rosenthal. Well, as I said earlier, I think SAMHSA 
really helped birth the recovery consumer movement, and my 
experience with them in the contracts that I am working on is 
really focused on peer support, health care integration, 
employment, things that are noncontroversial and very important 
and significant. I think that arguments have been made that 
SAMHSA needs to be more balanced, but I think that the solution 
of eliminating it is not the way to go. We will lose an 
important resource and decades----
    Mr. Collins. Yes, I don't think that has been suggested, 
but like some government agencies, I think at some point more 
accountability, more metrics----
    Mr. Rosenthal. I don't disagree with that, Congressman. I 
think----
    Mr. Collins. OK.
    Mr. Rosenthal [continuing]. SAMHSA needs more 
accountability.
    Mr. Collins. Yes. Well, I appreciate all of your--you would 
like to make a comment?
    Dr. Lieberman. Yes, I mean SAMHSA----
    Mr. Collins. You only have about 30 seconds, but----
    Dr. Lieberman. SAMHSA's budget is $3.6 billion. The NIMH's 
budget is $1.2 billion. SAMHSA's efforts to try and provide and 
innovate mental health care from the perspective of the 
academic psychiatric community has been a disaster. They have 
not had a psychiatrist in a significant position of leadership 
in that in a decade. There is an ideological bias which 
pervades the organization. In fact, I would go so far as to say 
that SAMHSA is a proxy agency for the antimedical, 
antipsychiatry approach to mental health care.
    Mr. Collins. I can appreciate those comments, and certainly 
we continue to look to Chairman Murphy to lead our discussion 
in many of these areas based on his expertise. And while I 
don't think anyone would suggest SAMHSA go out of existence, I 
think we want to see our taxpayer dollars go where they should, 
and perhaps a rebalancing might be appropriate as we move 
forward, and we would certainly appreciate your input on that.
    My time has expired, Mr. Chairman. I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    I don't see any other Health Subcommittee members present, 
so without objection, we will go to--do we have----
    Voice. It is full committee.
    Mr. Pitts. Full committee members. Mr. Tonko, you are 
recognized 5 minutes for questions.
    Mr. Tonko. Thank you, Mr. Chair.
    I think we need to identify for the record whether or not 
we eliminate the SAMHSA role with the creation of a new 
structure within the Secretary's position.
    Mr. Pitts. Do you want to respond, Dr. Murphy?
    Mr. Murphy. What we do is we elevate SAMHSA from an agency 
to having Assistant Secretary of Mental Health and Substance 
Use be the head of that. And so it is not eliminated at all. It 
is elevated in terms of the authority of that. As you know, 
with these 112 federal agencies out there, someone needs to 
have enough strength behind their name and title to actually 
coordinate many aspects of this.
    Mr. Tonko. OK. I think it certainly warrants further 
discussion. And Representative Butterfield had to leave. He has 
asked that I request that this article, Fatal Police Shootings 
in 2015 Approaching 400 Nationwide, be submitted to the record.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Tonko. And I thank you, Mr. Chair. And thank you as 
well to my colleagues. Certainly, Representative Murphy and 
Representative Matsui have been doing great work to introduce 
legislation that continues the conversation on how we can best 
address the needs of those struggling with mental illness.
    While I continue to have a number of concerns with the 
Helping Families in Mental Health Crisis Act, I believe that it 
is a thoughtful and earnest endeavor, and it is my hope that we 
can all come together to move forward, address these concerns, 
strengthen the legislation, and produce a final product. I 
think it is very important that we do that, and that need has 
been expressed by several on the panel here this morning.
    That being said, Mr. Gionfriddo, in your testimony you 
touched upon the issue of funding for the new programs included 
in this legislation, stating that it is emphatically the 
position of Mental Health America that any offsets should not 
come from existing community mental health programs. One of my 
concerns with this legislation as it currently is written is 
that it is ambiguous on the funding mechanisms of many of these 
programs, and where it does speak to funding specific programs, 
it often reauthorizes them at lower levels than currently 
funded. As the authorizing committee, it is our job to ensure 
that we put our money where our mouth indeed is, and provide 
clear and unambiguous funding instructions to the 
Appropriations Committee so that together, we can make the 
strong bipartisan case that more funding is needed for mental 
health and substance use programs----
    Mr. Gionfriddo. Yes.
    Mr. Tonko [continuing]. And can you please comment on this 
and, more generally, the need for this legislation to support 
not supplant existing funding for mental health and substance 
use programs?
    Mr. Gionfriddo. Yes, I would be happy to. The first thing 
is that I would certainly encourage the committee to not make 
any doubt about the fact, or have any doubt about the fact that 
those dollars ought to come from someplace else. And, of 
course, I said in my testimony I think they ought to come from 
the jails and prisons. I think that is the place to get them 
from because that is the place they have been sent to.
    Too many dollars have been cut. The states cut $4.6 billion 
from mental health agencies between 2009 to 2013, and here we 
hear that we only put the federal level $1.2 billion into IMH, 
and then SAMHSA only put $1.2 billion into the mental health 
side. That is \1/2\ of what the states have cut is the total 
federal amount. So we can't continue to live with that. If the 
states aren't going to do their jobs, and they haven't been 
doing their jobs in this area, they just haven't, the Federal 
Government has to step in and figure out how to give them the 
guidance to make sure that they invest this way, and make sure 
they continue to invest early on in the process.
    Mr. Tonko. Thank you very much.
    And can I ask our other panelists to comment on that same 
question about supporting, nor supplanting existing funding? 
Senator Deeds?
    Mr. Deeds. Sure. I don't claim any expertise. I know about 
the Virginia system, but from my perspective, the system 
overall is not working. I don't think it hurts anything to 
examine the way you spend money and see if you can spend it 
more efficiently. I have been in the state legislature 24 
years, I have never believed that you solve problems just by 
throwing money at them. But it is clear to me that in some 
cases, more funding is needed, but we have to make sure we are 
spending money as efficiently as we can right now, and I don't 
think we are.
    Mr. Tonko. OK. Congressman Kennedy, great to see you. Thank 
you for your hard work.
    Mr. Kennedy of Massachusetts. Well, thank you, 
Representative Tonko. You in New York passed the parity in New 
York. We acknowledge that.
    I would say that we have to see the forest for the trees. 
And the forest says that if we employ a whole new system, 
instead of the emergency rooms, instead of the jails, we could 
give better care to people and it will cost us less money. And 
talk about a bipartisan plan that would get through Congress. 
So we need to talk about with GAO and OMB new mechanisms to 
think about mental health in a systemic way so that we are not 
trimming along the edges, because right now, Representative 
Murphy's statement that we are fiddling while Rome burns is 
true. We need to look at the more fundamental issues of where 
the funding is coming overall, and align them in between 
committees of jurisdiction, because a lot of people hear about 
the housing issues which need to be supported, the Department 
of Labor issues, the job training and support, none of that is 
aligned in our budgets and that is what hobbles our ability to 
have a comprehensive solution to this challenge.
    Mr. Tonko. Thank you very much. Dr. Lieberman?
    Dr. Lieberman. I completely agree. I think it is not a 
matter of reducing funding, but it is a matter of--I think 
SAMHSA needs to be basically rehabilitated, and there is a 
mechanism in this bill which really elevates the stature and 
importance of mental health care which had been under the 
rubric of SAMHSA. I remember, my career goes back to when there 
was ADAMHA which was the combination of the NIMH and what is 
now SAMHSA, and there was effective oversight and direction 
then, but for a variety of reasons I don't claim to be privy 
to, they were separated. The NIMH went back into the NIH, and 
SAMHSA went off on its own, and it has been a complete waste 
ever since.
    Mr. Pitts. The gentleman's time has expired.
    The chair now recognizes Mr. Loebsack 5 minutes for 
questions.
    Mr. Loebsack. Thank you, Mr. Chair and Ranking Member. 
Thank you for letting me be an interloper here today. I am not 
a member of this subcommittee, and so it is a great opportunity 
for me to speak to some of these issues, and ask a couple of 
questions.
    First thing I should say, as so many of the folks in this 
body, I have personal experience with this issue. My mom, as I 
was growing up, and as long as I can remember, as long as she 
lived, she struggled with mental illness. That leads me to the 
issue of stigma, and I am really glad that Ms. Schakowsky 
talked about that. I know that you folks are very aware of 
that. And, Congressman Kennedy, I mean we have talked about 
this while you were here, and you have been such a great 
champion on these issues. When I was on the Education and Labor 
Committee, we had a lengthy hearing, we had Rosalynn Carter 
come in and talk about this. I tell people often as a Member of 
Congress, if I don't succeed at anything else on the mental 
illness front, I am going to be very successful in talking 
about this issue and doing everything I can to remove the 
stigma from this issue and those folks who are struggling with 
this issue. And if that is all I succeed then I will have at 
least done something while I am here.
    On the policy front, I do thank my friend, Congressman 
Murphy, for his attempts to do what he can on this front. I 
know we can do better. He knows we can do better. And I have 
talked to him at great length about how we can hopefully work 
together to resolve some of these issues.
    My big issue today that I just want to mention briefly has 
to do with children, has to do with rural areas, and there are 
a number of us on this panel who are from rural areas. Clearly, 
children are best served by providers that are trained to meet 
their needs. There is no question about that. That may mean a 
child psychiatrist where one is available, and that is the big 
issue in many ways, but it should also involve pediatricians, I 
would argue, that have well-established relationships with 
families and that serve as a medical home for children. But in 
Iowa, there are only 53 child and adolescent psychiatrists. 
Now, we only have 3 million people, but only 53. And these 
providers are concentrated in 14 counties. That leaves 85 more 
rural counties without a single provider. Also, the provider on 
average is 52 years old. So the demographics are there as well. 
You know this very well, Dr. Lieberman.
    I am going to be introducing legislation soon that would 
tackle this issue by supporting innovative programs that 
operate in more than \1/2\ of all states, including my own, 
Iowa, to provide mental health consultation by child 
psychiatrists, or pediatric primary care practices, often 
called child psychiatry access programs, to enable the 
pediatrician to treat a child in his or her office, or refer to 
a specialist if that is necessary. These programs, I think, 
show a lot of promise. They are being well received by 
pediatricians and by child psychiatrists alike. So I guess I 
would like to--Mr. Gionfriddo, and perhaps Dr. Lieberman as 
well, and anyone else, talk to me about these issues if you 
would, about the need for early childhood intervention and 
treatment programs, and about how the needs of children are 
different than the needs of adults, and how child psychiatrists 
are uniquely qualified, if you will, to help this population, 
and integrating that as well, as I have suggested.
    Mr. Gionfriddo. Well, starting from a nonclinical 
perspective, and mostly sort of a parental perspective about 
this----
    Mr. Loebsack. That is important.
    Mr. Gionfriddo [continuing]. It was absolutely essential 
that my son, at a relatively early age, had access to a good 
child psychiatrist. He had access to a good child psychologist 
as well, and they together really helped develop a plan. Now, 
it didn't work out all that well because we couldn't integrate 
what the schools were doing, and that is a whole other issue we 
all need to talk about----
    Mr. Loebsack. Right.
    Mr. Gionfriddo [continuing]. How we do that with kids. But 
it is absolutely essential that we get those perspectives 
working with parents and the parents' pediatricians, as you 
point out, right from the start, because together, all of those 
four parties, if you will, and the social workers who assist, 
and others too, can put together the kind of plans that can 
change trajectories of lives. And that is what we have to think 
about here. We don't just have these two populations, all these 
people are going to get better on their own, or those other 
people we have to wait until disaster occurs to treat, 99.9 
percent of the people like my son, somewhere in the vast middle 
of this, and we can do so much for them if we all work 
together, just like you are going to do so much for us by all 
working together this year.
    Mr. Loebsack. That is right. Hey, we have done some of that 
on this committee already, and I think we have already set some 
good examples.
    Yes, Dr. Lieberman?
    Dr. Lieberman. I couldn't agree with you more. If you talk 
to any primary care doctor, whether it is a pediatrician, a 
family medicine doctor, or an internist, they will tell you 
that 40 percent of their practice or more is psychiatric. And 
there aren't enough child psychiatrists, there aren't enough 
adult psychiatrists, to go around, and we need to have really 
teams of mental health care providers which include all the 
disciplines--psychology, social work, nurse practitioners--that 
have defined roles and responsibilities. But the frontier, the 
line of first defense, needs to be in the primary care system.
    Mr. Loebsack. OK.
    Dr. Lieberman. And so mental health education needs to be 
part of all the primary care system. That includes pediatrics, 
OB/GYN, and family medicine.
    Mr. Kennedy of Massachusetts. And I would just add 
collaborative care models have been validated through 80-plus 
randomized control trials. So this notion of building this has 
been demonstrated to be cost-effective in outcomes, and why we 
don't have insurance companies reimbursing for something that 
is in their self-interest in terms of better financial interest 
and better health, is something we still have to work on. But 
you are right on target with trying to bridge this gap in the 
workforce shortage by having more collaborative care models.
    Mr. Loebsack. Thanks to all of you. And thank you, Mr. 
Chair. Thank you.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentleman from Indiana, Dr. Bucshon, 5 
minutes for questions.
    Mr. Bucshon. Mr. Chairman, I yield my time to Mr. Murphy 
from Pennsylvania.
    Mr. Murphy. I thank the gentleman from Indiana. And just a 
couple of quick questions here.
    Dr. Lieberman, is there anything we can do to really 
totally prevent schizophrenia and bipolar right now?
    Dr. Lieberman. I think that these conditions are 
preventable in the sense that we can't cure them, but we can 
stop them from starting. And the way to do that has really 
already been--a template has been created in the area of 
cardiovascular disease. In 1955, President Eisenhower had a 
heart attack and, I think it is known that he loved to play 
golf, he was a chain-smoker, he was obviously in high stress, 
he had a heart attack. And he went in the hospital for 4 weeks, 
he rested, afterwards they told him to take it easy for another 
4, 6 weeks and then come back to work. And he sort of resumed 
the same lifestyle, and some years later, from a recurrent 
heart attack, he died. But that stimulated public attention and 
galvanized research in the medical community and the NIH 
funding. And 50 years later, the morbidity and mortality of 
cardiovascular--arteriosclerotic heart disease is 60 percent 
less, 60 percent less. But apart from that, it transformed the 
way cardiovascular disease was managed. It is no longer wait 
until somebody gets sick and then put them in the hospital or 
treat them with something, it is when you are born, you know 
what risk factors you have. You may have a family history. As 
you grow, you have to watch your weight. Your family may want 
you to watch your diet. You can have your cholesterol measured. 
There are now gene panels that assess risk for cardiovascular 
disease. So preemptively, these are being addressed. But if you 
do get into a point where you are short of breath and you have 
chests pain or something, you can have a thallium scan, you can 
have a stress EKG, you can have various tests with pre-
morbidly, that is your secondary prevention----
    Mr. Murphy. Are we getting to some of those, so one comment 
Mr. Rosenthal said by fostering a sharp swing to a more medical 
biological approach to mental health, we shouldn't be doing 
that necessarily, but I mean--but yet last summer they 
identified 108 genetic--genomic markers of schizophrenia. I see 
that as a breakthrough. I hope we can get there to do these 
things.
    And let me give a couple of concluding comments. I think I 
am the last person to question here.
    Senator, I feel like I have made a new friend today, and I 
thank you for that. I thank you for your courage and your 
tenacity as well. If every state had someone like you for our 
Nation, more people like you, we would get this done. Patrick, 
also a dear friend, thank you for your voice on these issues. 
It is powerful. We have to keep that up. Keep it motivated. 
Jeff Lieberman, I know you are dedicated to these things. You 
are a great voice in saying we can solve these problems, and we 
will do that. Paul, we developed a good friendship over this 
too, and understand we have common grounds here. We have to 
work on these prevention issues. It is your work that made 
substantial changes in this bill. I thank you for that. We will 
keep working on that. And, Mr. Coe and Ms. Billingsley and 
Rosenthal, as I said earlier, there is a lot you said I totally 
agree with, and what we have to do is find the right wording to 
make sure we have that in there. You have heard a joint 
commitment here as we go through with Ms. Matsui, Mr. Tonko, 
and others here. We have more conversations of this on the 
floor than--of course, the media would never report, but you 
know what, we are actually working together. And maybe that is 
the news. But because we have been so involved in mental health 
for a long time, I began some 40 years ago at this too, but I 
think of that when we are all fresh and wet behind the ears, 
dealing with the mental health field. One of the things that 
oftentimes struck me is why do we do it this way? Why can't we 
just help these families? Why can't we just talk to people? Why 
can't we use evidence-based care? And oftentimes we were told, 
well, we can't do it that way because, and it shouldn't be that 
way. I say psychiatry and psychology are the only areas of 
medicine that are defined by lawyers, and we need to make then 
defined by the patients' needs, by the consumers' needs, and 
get involved in a model that says really, yes, we can, and not 
only yes, we can, but we have to.
    Now, with regard to funding on these things, look, I am 
first in line to nag the Appropriations Committee. And now, the 
Senate may have some different rules they can follow, but we 
have to put a bill through that is budget-neutral. We are 
working hard to find some offsets on this. I look forward to 
working with my colleagues on this. I--look, I have no doubt 
that this equal, equal passion for changing these things, and 
we will do these things together.
    And I ask along those lines if all the members of this 
panel, all the witnesses, all the members of this subcommittee 
and others, we will keep working together. You have given us 
some great ideas today about what we have to do about the 
wording for this. But for all those people who we have lost 
this year and lost in other years, let's not make their lives 
lost a lost cause. Let's join together and recognize that we 
have to make sure that those disappearance of their lives 
shouldn't be a disappearance of our passion and our dedication 
to this. We can make this happen. I fear greatly for this 
Nation if we do not make this the year that we make these 
significant and substantial reforms in this. Let's use our 
voices together. We will not be silenced. We will make some 
changes here.
    And with that, Mr. Chairman, I thank you for your 
leadership in this as well. We can get this done. Hopefully, 
next time we get together will be for a Markup, or as a group, 
but with my colleagues, we will work together on some wording 
of these things for their concerns.
    And I--with that, I yield back.
    Mr. Pitts. The chair thanks Dr. Murphy. Thank you for that 
excellent summary of our hearing today.
    And the chair would like to thank all of the witnesses for 
your patience, for your testimony, your expertise. It has been 
a very important hearing in this whole path that we are 
traveling on this issue, and the committee will act on this 
legislation.
    Members who were not here will have questions, I am sure. 
Some of us may have follow-up questions. We will submit those 
to you in writing. We ask that you please respond promptly.
    I remind members that they have 10 business days to submit 
questions for the record. That means they should submit their 
questions by the close of business on Tuesday, June 30.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
